CAPITAL CASE
No. 19A570
________________________________

In the Supreme Court of the United States
________________________________
CRAIG M. WOOD,
Petitioner,
v.
STATE OF MISSOURI
Respondent.
________________________________
APPLICATION TO FURTHER EXTEND TIME TO FILE PETITION FOR A WRIT
OF CERTIORARI FROM JANUARY 3, 2020 TO JANUARY 31, 2020
________________________________
To the Honorable Justice Gorsuch:
Pursuant to 28 U.S.C. § 2101(c) and Supreme Court Rules 13.5, 22, and 30,
petitioner Craig M. Wood respectfully requests that the time to file a petition for a
writ of certiorari in this case be extended for an additional 28 days to and including
January 31, 2020. The Supreme Court of Missouri rendered its opinion on July 16,
2019. It denied a timely motion for rehearing on September 3, 2019. The petition
originally was due on December 2, 2019. On November 19, 2019, you granted a timely
application extending the time to file until January 3, 2020. Petitioner is filing this
application more than ten days before that date. See Sup. Ct. R. 13.5. If the extension
is granted, the total duration of extensions will be 60 days. This Court has jurisdiction
under 28 U.S.C. § 1257 to review this case.

BACKGROUND
As explained in the first Application to Extend Time (App., infra), this case
presents an important question about the right to a unanimous jury verdict at the
penalty phase of a capital case. Missouri employs an unusual sentencing scheme that
permits a judge to impose the penalty of death if a jury deadlocks on the issue of
punishment. The state supreme court, expressly disagreeing with decisions of two
state courts of last resort, held that the Sixth Amendment only requires a jury to
consider whether statutory aggravating circumstances exist—and does not require a
jury to weigh mitigating evidence or ultimately find that a sentence of death is
warranted.
REASONS FOR GRANTING AN EXTENSION OF TIME
The time to file a petition for a writ of certiorari should be extended for 28 days,
to January 31, for several reasons.
First, the press of other matters will make the filing of the petition difficult
absent a further extension. In addition to this matter, counsel of record for petitioner
is currently responsible for:
(1) Oral argument regarding a dispositive motion in the Northern District of
California on December 19, 2019.
(2) A reply brief in support of the petition for a writ of certiorari in No. 19-583,
due on December 23, 2019.
(3) A reply brief in support of the petition for a writ of certiorari in No. 19-638,
due on December 23, 2019.
(4) A supplemental brief responding to the Solicitor General’s submission in
No. 18-1140, due on December 23, 2019.

2

(5) Drafting a civil complaint in a non-public matter, which must be filed by
December 30, 2019.
(6) An amicus brief in support of the petition for a writ of certiorari in No.
19-697, due on January 2, 2020.
(7) An opening brief and joint appendix due in the Fourth Circuit on January
3, 2020.
(8) A portion of the merits brief in No. 18-956, due on January 6, 2020.
Due to the press of these other matters, additional time is necessary to prepare
a concise and thorough petition for this Court’s review. Petitioner’s counsel is also
considering enlisting the help of the Harvard Law School Supreme Court Litigation
Clinic with this project, and the clinic meets for the month of January, so the
extension will facilitate student participation in the case.
Second, no prejudice would result from the extension. Whether the deadline to
file the petition is extended or not, the petition will be ruled upon this Term and, if
the petition is granted, the case will be argued next Term.
Third, the petition is likely to be granted. At a minimum, the Sixth
Amendment question in this case squarely implicates a conflict among state courts of
last resort about capital defendants’ right to have the factual issues underlying their
sentences determined by a jury.

3

CONCLUSION
For the foregoing reasons, the time to file a petition for a writ of certiorari
should be extended for 28 days to and including January 31, 2020.
Respectfully submitted,

_______________________________
Tejinder Singh
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tsingh@goldsteinrussell.com
Dated: December 19, 2019

4

APPENDIX

CAPITAL CASE
App. No. ___
________________________________

In the Supreme Court of the United States
________________________________
CRAIG M. WOOD,
Petitioner,
v.
STATE OF MISSOURI
Respondent.
________________________________
APPLICATION TO EXTEND TIME TO FILE PETITION FOR A WRIT OF
CERTIORARI FROM DECEMBER 2, 2019 TO JANUARY 3, 2020
________________________________
To the Honorable Justice Gorsuch:
Pursuant to 28 U.S.C. § 2101(c) and Supreme Court Rules 13.5, 22, and 30,
petitioner Craig M. Wood respectfully requests that the time to file a petition for a
writ of certiorari in this case be extended for 32 days to and including January 3,
2020. The Supreme Court of Missouri rendered its opinion on July 16, 2019. See App.
A, infra. It denied a timely motion for rehearing on September 3, 2019. See App. B,
infra. Absent an extension of time, the petition would be due on December 2, 2019.
Petitioner is filing this application more than ten days before that date. See Sup. Ct.
R. 13.5. This Court has jurisdiction under 28 U.S.C. § 1257 to review this case.
BACKGROUND
This case presents an important question about the right to a unanimous jury
verdict at the penalty phase of a capital case. Missouri employs an unusual
sentencing scheme that permits a judge to impose the penalty of death if a jury

deadlocks on the issue of punishment. As relevant here, Missouri’s statute provides
that at the sentencing phase in a capital case, the trier of fact shall declare the
punishment as life without the possibility of parole (and not death):
(1) If the trier finds by a preponderance of the evidence that the defendant is
intellectually disabled; or
(2) If the trier does not find beyond a reasonable doubt at least one of the
statutory aggravating circumstances set out in subsection 2 of section 565.032;
or
(3) If the trier concludes that there is evidence in mitigation of punishment,
including but not limited to evidence supporting the statutory mitigating
circumstances listed in subsection 3 of section 565.032, which is sufficient to
outweigh the evidence in aggravation of punishment found by the trier; or
(4) If the trier decides under all of the circumstances not to assess and declare
the punishment at death. If the trier is a jury it shall be so instructed.
If the trier assesses and declares the punishment at death it shall, in its
findings or verdict, set out in writing the aggravating circumstance or
circumstances listed in subsection 2 of section 565.032 which it found beyond
a reasonable doubt. If the trier is a jury it shall be instructed before the case is
submitted that if it is unable to decide or agree upon the punishment the court
shall assess and declare the punishment at life imprisonment without
eligibility for probation, parole, or release except by act of the governor or
death. The court shall follow the same procedure as set out in this section
whenever it is required to determine punishment for murder in the first
degree.
Mo. Ann. Stat. § 565.030(4). The key language provides that if the jury “is unable to
decide or agree upon the punishment,” then the task of choosing either death or life
without parole falls to the court, which “shall follow the same procedure” as the jury.
Ibid.
In this case, after petitioner was convicted of first-degree murder, the jury
found that aggravating circumstances were present. It also stated it did not
unanimously find that the mitigating evidence outweighed the aggravating evidence.
2

However, the jury deadlocked as to whether to impose the death penalty. Under the
statutory scheme, the question was thus taken away from the jury and given to the
trial judge. The trial judge addressed the matter orally (see App. C, infra), and
likewise determined that aggravating circumstances were present, and further
determined that the mitigating evidence did not outweigh the aggravating
circumstances and declined to exercise mercy, sentencing petitioner to death. In
making this decision, the trial court stated that it “does accept and agree[] with the
factual findings of the jury . . . Specifically, this Court finds beyond a reasonable doubt
the State did prove six statutory aggravating circumstances.” App. C at 4166. The
court then “further [found] the facts and circumstances in mitigation of punishment
were not sufficient to outweigh facts and circumstances in aggravation of
punishment.” Ibid. The court then determined that it was “required to consider both
life imprisonment, without the possibility of probation or parole, and death as
possible punishments for the defendant.” Id. at 4166-67. The court found, “after
considering the totality of the evidence presented in both the guilt and penalty phases
of the trial, the factual findings of the jury, and following the procedures set out in
the Missouri statute,” that a sentence of death was warranted because, in the court’s
view, this was “an extreme case.” Id. at 4167-68.
Petitioner had challenged the constitutionality of Missouri’s procedure in pretrial and post-trial motions. Specifically, petitioner argued that by permitting the
judge to impose a sentence of death when the jury could not agree on one, Missouri’s
statute rendered the jury’s verdict effectively advisory. Petitioner argued that this

3

violated both the Sixth Amendment right to have punishment determined by a jury,
and the Eighth Amendment right to be free from cruel and unusual punishment
because Missouri’s approach is an outlier from a consensus requiring unanimous jury
findings to support a death sentence. Petitioner also argued that Missouri’s
aggravating circumstances do not provide sufficient guidance to courts to narrow the
category of death-eligible inmates, as required by the Eighth Amendment. Petitioner
raised these arguments, together with other evidentiary issues, in an appeal to the
Supreme Court of Missouri.
The state supreme court affirmed the sentence of death. The court held that
the Constitution only requires the jury (as opposed to the judge) to find the presence
of aggravating circumstances. Once the jury makes that finding, the court held, the
judge can impose the sentence of death. Specifically, the court held that “[a]fter the
jury found the existence of multiple aggravating circumstances beyond a reasonable
doubt, the determination of whether [petitioner’s] personal circumstances mitigated
the brutality of his crime was a discretionary judgment call that neither the state nor
federal constitution entrusts exclusively to the jury.” App. A at 28. The court noted,
in a footnote at the end of that holding, that two state supreme courts—in Delaware
and Florida—had concluded otherwise. See id. at 28 n.12 (citing Rauf v. State, 145
A.3d 430 (Del. 2016) (en banc) (per curiam), and Hurst v. State, 202 So. 3d 40 (Fla.
2016) (per curiam)). But the Missouri court split with that authority, stating
definitively that “[t]hese cases are not binding, and both are wrongly decided.” Ibid.
The court also rejected petitioner’s Eighth Amendment arguments.

4

The Supreme Court of Missouri denied a timely petition for rehearing on
September 3, 2019. See App. B.
REASONS FOR GRANTING AN EXTENSION OF TIME
The time to file a petition for a writ of certiorari should be extended for 32 days,
to January 3, for several reasons.
First, petitioner only recently (last week) retained undersigned counsel for the
filing of a petition for a writ of certiorari before this Court. This case involves at least
three potential questions under the federal Constitution. Additional time is necessary
for counsel to review the record in the case as well as the decisions of other state
courts of last resort in order to prepare a clear and concise petition for the Court’s
review.
Second, no prejudice would result from the extension. Whether the deadline to
file the petition is extended or not, the petition will be ruled upon this Term and, if
the petition is granted, the case would almost certainly be argued next Term.
Third, the petition is likely to be granted. At a minimum, the Sixth
Amendment question in this case squarely implicates a conflict among state courts of
last resort about capital defendants’ right to have the factual issues underlying their
sentences determined by a jury.

5

CONCLUSION
For the foregoing reasons, the time to file a petition for a writ of certiorari
should be extended for 32 days to and including January 3, 2020.
Respectfully submitted,

Rosemary E. Percival
Missouri State Public Defender
920 Main Street, Suite 500
Kansas City, MO 64105

Tejinder Singh
Counsel of Record
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tsingh@goldsteinrussell.com

Dated: November 19, 2019

6

APPENDIX A

SUPREME COURT OF MISSOURI
en banc

STATE OF MISSOURI,
Respondent,
v.
CRAIG M. WOOD,
Appellant.

)
)
)
)
)
)
)
)
)

Opinion issued July 16, 2019

No. SC96924

APPEAL FROM THE CIRCUIT COURT OF GREENE COUNTY
The Honorable Thomas Mountjoy, Judge
Craig Wood appeals a judgment finding him guilty of one count of first-degree
murder, § 565.020, RSMo 2000, and sentencing him to death. 1 This Court has exclusive
appellate jurisdiction. Mo. Const. art. V, § 3. The judgment is affirmed.
Factual and Procedural Background
On the afternoon of February 18, 2014, Carlos and Michelle Edwards saw 10-yearold Hailey Owens walking down the sidewalk near their home in Springfield. A tan Ford
Ranger truck drove past Hailey, turned around, and pulled alongside her. The driver, later
identified as Wood, asked Hailey for directions. As Hailey began to walk away, Wood

1

All statutory citations are to RSMo 2016 unless otherwise indicated.

opened the door and told her to come back. Hailey turned and stepped toward the truck.
Wood lunged at Hailey, and pulled her into the truck. Mr. Edwards ran toward the truck,
yelling at Wood to stop. Wood sped away. Mrs. Edwards called 9-1-1 to report the incident
and the truck's license plate number. The truck was registered to Wood's parents, but Wood
was the primary driver.
Springfield police officers surveilled Wood's home. They observed a tan Ford
Ranger truck pull into the driveway. The truck's license plate number matched the number
Mrs. Edwards reported. As an officer approached, Wood exited the truck and tossed a roll
of duct tape into the truck bed. Wood, nervous and smelling of bleach, acknowledged he
knew why the officers were there.
Wood voluntarily accompanied officers to police headquarters. Wood admitted the
Ford Ranger was his, but declined to answer any questions regarding Hailey's location.
Officers observed an abrasion and dried blood on Wood's lower lip, dried blood on one of
his fingers, and red vertical marks on his neck and near his groin. His hat appeared to have
bleach stains. Wood told officers he made two trips to Walmart earlier in the day to
purchase bleach and drain cleaner. Wood also said he went to a laundromat, and his
laundry was still there.
Officers went to Wood's house to look for Hailey. They entered through an
unlocked back door. A strong odor of bleach emanated from the basement. The basement
steps and floor were wet. A fan was running, and a scrap of duct tape was on the floor.
There were empty bleach bottles and several plastic storage tubs. The officers secured the
house and left.
2

After obtaining a search warrant, the officers returned and fully searched Wood's
home. Wood's bed was stripped of sheets and blankets. On the bedroom dresser, police
found a folder containing two handwritten stories detailing fantasies of sexual encounters
between an adult male and 13-year-old girls. The folder also contained photographs of
girls who were students at the middle school where Wood worked as an aide and football
coach.
In the basement, the officers found Hailey's nude body wrapped in black plastic
bags, stuffed into a 35-gallon plastic tub. Hailey's body, stiffened from rigor mortis, was
wet and smelled of bleach. Her lips, cheek, and ear were bruised. Ligature marks indicated
Wood tied Hailey by the wrists, and she struggled to free herself. A .22-caliber shell casing
lay on the basement floor. The shell casing was fired from a .22-caliber rifle locked inside
a gun safe in a storage room.
An autopsy showed Hailey died from a gunshot to the back of her neck, killed by a
.22-caliber bullet that passed through the base of her brain. Wood fired the fatal shot from
point blank range, placing the barrel of the gun on the back of Hailey's neck before pulling
the trigger. Hailey's vagina and anus were lacerated and bruised in a manner consistent
with sexual assault.
While Wood had locked the murder weapon away in a safe, officers found several
guns larger than .22-caliber and several shotguns left in open view throughout Wood's
home. In the bedroom, officers found a shotgun leaning against the wall and a larger caliber
handgun on the nightstand next to the bed. An FBI agent testified the .22-caliber rifle
would make less noise and less mess than other weapons found in the house.
3

Officers discovered Hailey's clothing in a dumpster behind a strip mall near Wood's
home. Surveillance video showed Wood placing Hailey's clothes in the dumpster. A
receipt in Wood's truck showed he purchased a laundry bag and duct tape from Walmart
on the evening of Hailey's murder. Police also obtained video footage from Walmart
showing Wood purchased bleach and drain cleaner approximately an hour after abducting
Hailey.
Wood did not testify or present evidence during the guilt phase. During guilt phase
opening statements, Wood's counsel argued Wood did not deliberate before killing Hailey.
The state's closing argument emphasized the evidence showing Wood purposely and
deliberately killed Hailey. The state argued, "I submit to you that when you place the
muzzle, the end of the barrel of a gun, against the back of the base of the skull and you pull
the trigger, there's only one purpose you can have, and that's to kill someone. Your
common sense tells you that." The state argued Wood deliberately killed Hailey because
he chose "the smallest caliber weapon he has, that will make the least mess and the least
noise," and then locked the murder weapon away in a gun safe. The state concluded that
considering this evidence in conjunction with evidence Wood attempted to conceal his
crime by stripping the sheets from his bed, bleaching and hiding Hailey's body, and
disposing of her clothes in a dumpster behind a strip mall proved beyond a reasonable
doubt Wood deliberately killed Hailey. The jury found Wood guilty of murder in the first
degree. 2

2

In addition to one count of first-degree murder, the state charged Wood with one count of armed
criminal action, § 571.015, RSMo 2000, one count of child kidnapping, § 565.115, RSMo Supp.

4

During the penalty phase, the state presented a detective's testimony that he found
no connection between Wood and Hailey or her family. A computer forensic examiner
testified that after an Amber alert was issued for Wood's truck, a friend sent a text message
to Wood asking "You haven’t been hunting, have you." Another friend texted, "Oh, great,
I just got an Amber Alert about a gold Ford Ranger. What have you and bear done???"
Wood's dog was named Bear.
The state presented victim impact testimony from the mother of one of Hailey's
friends, Hailey's teacher, her great-grandmother, two aunts, and a pastor. The witnesses
testified Hailey was a happy and loving child. Hailey's death left an "unfillable void" in
her family and traumatized her brother. Hailey's teacher testified that, after Hailey's
murder, her classmates' behavior changed and they struggled to cope with Hailey's death.
Hailey's aunt testified more than 10,000 people attended a vigil for Hailey. The pastor
testified "countless parents" told him they no longer allowed their children to play
unsupervised in their front yards or walk to a friend's house.
Wood presented testimony from his parents, three friends, a priest, and two guards
from the Greene County jail. Wood's parents testified regarding Wood's problems with
depression and substance abuse, but noted he was employed consistently and had no
significant criminal history. Wood's friends testified they were shocked when he was
arrested because such a crime was out of character. One friend noted Wood once saved a

2004, one count of first-degree rape, § 566.030, RSMo Supp. 2013, and one count of sodomy,
§ 566.060, RSMo Supp. 2013. The state proceeded to trial only on the murder count. Because of
intensive pretrial publicity, a jury was chosen from Platte County.

5

man from an apartment fire. None of Wood’s friends were aware he had sexual fantasies
about young teenage girls. The priest testified that, since his arrest, Wood renewed his
faith, studied the Bible, and regularly met to discuss what he had done. The jail guards
testified that, aside from hoarding pills for an apparent suicide attempt, Wood caused no
problems.
The jury found the following statutory aggravating circumstances beyond a
reasonable doubt:
The murder of Hailey involved torture and depravity; that the defendant
killed Hailey after she was bound or otherwise rendered helpless by the
defendant, and the defendant thereby exhibited a callous disregard for the
sanctity of all human life;
The defendant's selection of the person he killed was random and without
regard to the victim’s identity and that defendant’s killing of Hailey thereby
exhibited a callous disregard for the sanctity of human life;
The murder of Hailey was committed for the purpose of avoiding arrest;
The murder of Hailey was committed while the defendant was engaged in
rape;
The murder of Hailey was committed while the defendant was engaged in
sodomy;
The murder of Hailey was committed while the defendant was engaged in
kidnapping;
Hailey was a witness or potential witness of a pending investigation of the
kidnapping of Hailey.
The jury unanimously found the foregoing aggravating circumstances but
deadlocked on punishment. The jury did not unanimously determine the mitigating
circumstances outweighed the aggravating circumstances.
6

Because the jury deadlocked on punishment, the circuit court determined the
appropriate sentence as required by § 565.030.4. The circuit court specifically referenced
the six aggravating circumstances found unanimously by the jury and stated it "does accept
and agrees with the factual findings of the jury as set forth in its verdict as to punishment."
The circuit court then determined "the facts and circumstances in mitigation of punishment
were not sufficient to outweigh facts and circumstances in aggravation of punishment."
Finally, "based upon factual findings of the jury," the court determined death was the
appropriate sentence.
Wood presents nine points on appeal challenging the circuit court's evidentiary
rulings, the state's closing argument, the decision to strike a juror for cause, and the
constitutional validity of § 565.030 and § 565.032 governing Missouri's death penalty
procedure. 3
I. Evidentiary Claims
Wood raises four points asserting the circuit court erred by overruling his objections
to the admission of evidence. "A trial court has broad discretion to admit or exclude
evidence during a criminal trial, and error occurs only when there is a clear abuse of this
discretion." State v. Hartman, 488 S.W.3d 53, 57 (Mo. banc 2016) (internal quotation
omitted). "A trial court abuses its discretion only if its decision to admit or exclude
evidence is clearly against the logic of the circumstances then before the court and is so
unreasonable and arbitrary that it shocks the sense of justice and indicates a lack of careful,

3

For organizational purposes, Wood's points on appeal are addressed out of order.

7

deliberate consideration." State v. Blurton, 484 S.W.3d 758, 769 (Mo. banc 2016) (internal
quotation omitted). "This Court will reverse the trial court's decision only if there is a
reasonable probability that the error affected the outcome of the trial or deprived the
defendant of a fair trial." Id.
A. Cell phone photographs properly admitted
Wood claims the circuit court abused its discretion during the guilt phase by
overruling his objection to the admission of 32 photographs from Hailey's cellphone. The
circuit court reviewed the photographs before overruling Wood's objection and concluded
they were relevant and admissible.
The photographs were taken from 11:10 a.m. to 4:40 p.m., just minutes before Wood
abducted Hailey. The photographs depicted Hailey, her dog, family, friends, stuffed
animals, the neighborhood where she was walking, and her friend’s handwritten lyrics to a
popular song. Wood argues the photographs were improper victim impact evidence during
the guilt phase because most of the photographs were cumulative and had no logical or
legal relevance to disputed facts pertaining to the murder charge.
"Evidence must be logically and legally relevant to be admissible." State v. Prince,
534 S.W.3d 813, 817 (Mo. banc 2017). "Evidence is logically relevant if it tends to make
the existence of a material fact more or less probable." Id. (internal quotation omitted).
"Evidence is legally relevant when the probative value of the evidence outweighs unfair
prejudice, confusion of the issues, misleading the jury, undue delay, waste of time, or
cumulativeness." State v. Taylor, 466 S.W.3d 521, 528 (Mo. banc 2015) (internal quotation
omitted). "Photographs are relevant if they depict the crime scene, the victim's identity,
8

the nature and extent of the wounds, the cause of death, the condition and location of the
body, or otherwise constitute proof of an element of the crime or assist the jury in
understanding the testimony." State v. Collings, 450 S.W.3d 741, 762 (Mo. banc 2014)
(internal quotation omitted).
The disputed element during the guilt phase was deliberation. Section 565.002(3),
RSMo 2000, defined deliberation as "cool reflection for any length of time no matter how
brief." 4 The element of deliberation may be proven by the circumstances surrounding the
crime. Collings, 450 S.W.3d at 760. Although Wood admitted he killed Hailey, "the state,
having the burden of proving defendant's guilt beyond a reasonable doubt, should not be
unduly limited in its quantum of proof." State v. Griffin, 756 S.W.2d 475, 483 (Mo. banc
1988).
The photographs of Hailey and the neighborhood where she was walking were
logically and legally relevant because they assisted the jury with understanding the
circumstances surrounding the crime. The photographs confirmed the timeline of events
and showed Hailey was wearing the same clothing Wood later discarded in the dumpster.
Wood's attempt to dispose of Hailey's clothing and conceal the crime supports an inference
of deliberation. See State v. Tisius, 92 S.W.3d 751, 764 (Mo. banc 2002). Finally, the
photographs assisted the jury with understanding the nature and extent of the injuries Wood
inflicted on Hailey by showing she lacked any significant injuries prior to the abduction.
The fact Hailey lacked injuries prior to the abduction assisted the jury with understanding

4

Section 565.002 was amended effective January 1, 2017. The definition of "deliberation"
remained the same but is now found in § 565.002(5).

9

the multiple injuries Wood inflicted, including ligature marks indicating Hailey struggled
to free herself. Evidence of multiple injuries and prolonged struggle are relevant to the
state's burden of proving the disputed element of deliberation beyond a reasonable doubt.
Id. The photographs were relevant and admissible.
To the extent the photographs of Hailey's stuffed animals, pets, family, and song
lyrics are less relevant, the issue is whether the allegedly erroneous evidentiary ruling was
so prejudicial that there is a reasonable probability it affected the outcome of the trial.
Hartman, 488 S.W.3d at 57. The state briefly mentioned the photographs in the guilt phase
closing argument to establish the timeline of events and the fact Hailey had no injuries
before Wood abducted her. The state's argument, therefore, was limited to referencing the
most relevant photographs. In any event, the overwhelming weight of the evidence clearly
established deliberation, and negates any reasonable probability the outcome would have
been different even if the circuit court had excluded some of the less logically relevant
photographs. 5
B. Gun evidence properly admitted
Wood claims the circuit court abused its discretion by admitting photographs and
testimony regarding firearms, ammunition, and related items found in his home. Wood
argues the evidence was logically irrelevant and prejudicial because the only possible

5

Wood argues the photographs may have affected the jury's subsequent deliberations in the
separate penalty phase. This speculative argument fails because the circuit court did not abuse its
discretion by admitting the photographs in the guilt phase.

10

purpose was to show he was a "gun-crazed, dangerous person with a propensity for
violence."
Evidence of weapons not connected to the accused or the offense at issue are
generally inadmissible. State v. Hosier, 454 S.W.3d 883, 895 (Mo. banc 2015). Because
Wood's sole defense during the guilt phase was lack of deliberation, the state's case hinged
on showing deliberation. The evidence of firearms of varying calibers and gauges found
throughout Wood's home shortly after he killed Hailey was logically and legally relevant
to show deliberation because it tended to prove Wood deliberately chose the smallest
weapon from his collection to facilitate his efforts to cover up the murder. In addition to
Wood foregoing the multiple weapons stored throughout the house, the evidence also
showed that in the bedroom where the evidence suggested Wood raped Hailey, officers
found a shotgun leaning against the wall and a large-caliber handgun on the nightstand next
to the bed. Wood used neither one of those readily accessible weapons. Instead, Wood
used the small, .22-caliber rifle officers found locked in a gun safe in the basement. The
state made precisely this point during closing argument:
He deliberately unloads and hides the rifle. Do you remember all those guns
he had around of a higher caliber? In fact, when he's raping her in the
bedroom, he's got a handgun right there he could have used. Does he use
that? No, he doesn't. He chooses the smallest caliber weapon he has, that
will make the least mess and the least noise, and then he hides it in the gun
safe, doesn't leave it out like the other guns, and he unloads that magazine.
The state's closing argument emphasized and was consistent with the fact the gun
evidence was both logically and legally relevant to refute Wood's argument he did not
deliberately kill Hailey.

The dissenting opinion, by relying on fundamentally
11

distinguishable cases, overlooks the fact the logical and legal relevance was amplified by
the number of weapons precisely because it showed Wood deliberately chose the
.22-caliber rifle even though multiple other weapons were more readily accessible. 6
Further, unlike the cases cited by the dissenting opinion, any alleged prejudicial effect of
the gun evidence "was minimized by admitting only photographs of the evidence, not the
guns and ammunition themselves." Id. at 896. The circuit court did not abuse its discretion

6

The dissenting opinion's argument that allowing the state to carry its burden of proving
deliberation by showing Wood chose the smallest weapon from his large collection requires
"jettisoning of decades of case law" is based on a misreading of that case law. Missouri law
cautions against evidence of weapons unrelated to the offense, particularly when the weapons
themselves are displayed to the jury. The cases cited by the dissent illustrate this principle. For
instance, in State v. Wynne, 182 S.W.2d 294, 297 (Mo. 1944), the issuing opinion was "whether
the appellant was unfairly and unjustly prejudiced by the prosecuting attorney's exhibition and
demonstration with a pistol as he cross-examined her." This Court held the appellant was
prejudiced because, "as the court told the jury, the .25-caliber gun in question had no connection
whatever with the defendant or the crime." Id. at 299. Similarly, in State v. Perry, 689 S.W.2d
123, 124-25 (Mo. App. 1985), the court held the defendant was prejudiced by "admitting the loaded
20-gauge shotgun into evidence" because it had no relation to the defendant and the alleged
robbery occurred "by means of a 'handgun' or 'pistol.'" In State v. Charles, 572 S.W.2d 195, 199
(Mo. App. 1978), the court of appeals reversed murder and robbery convictions because the circuit
court erroneously permitted the state "to prove collateral criminal offenses never admitted or for
which there was no conviction . . . by the admission of lethal weapons totally foreign to the offense
for which an accused is standing trial." Finally, in State v. Holbert, 416 S.W.2d 129, 133 (Mo.
1967), this Court reversed a conviction for carrying a concealed weapon because the circuit court
erroneously permitted the state to introduce two unrelated pistols into evidence, leave the pistols
in bags on the counsel table, and pass the pistols to the jury for examination. In Holbert, the
prejudice resulted from the fact the pistol recovered from the defendant's shirt pocket "was
admitted without objection" and was "in no way connected with the present offense" involving a
weapon recovered from the defendant's pants pocket. Id. Conversely, the photographs and
testimony regarding weapons found throughout Wood's residence were both logically and legally
relevant to the central, disputed element of deliberation.

12

by overruling Wood's objection to evidence of the firearms, ammunition, and related items
found throughout his home. 7
C. Contents of folder properly admitted
Wood claims the circuit court abused its discretion by overruling his objection to
evidence of the contents of the folder containing photos of four of Wood's female, middle
school students and handwritten accounts of fictional sexual encounters with 13-year-old
girls. Wood argues the photos and stories were inadmissible evidence of uncharged crimes
relevant only for the impermissible purpose of showing his propensity to commit the
offense.
It is unnecessary to address the merits of Wood's argument because a party can open
the door to the admission of evidence "with a theory presented in an opening statement, or
through cross-examination." State v. Shockley, 410 S.W.3d 179, 194 (Mo. banc 2013)
(internal quotation and citation omitted). During opening statements, defense counsel
argued the contents of the folder showed Wood acted out of compulsion, not deliberation,
because his drug use unleashed suppressed sexual desire for young teenage girls. Wood
argues defense counsel strategically chose to discuss the folder because the circuit court
overruled his motion in limine to exclude the contents of the folder from evidence. But
Wood's counsel recognizes a ruling on a motion in limine is interlocutory and subject to

7

The dissenting opinion asserts "it appears the circuit court skipped" its "duty to weigh the
probative value of each additional piece of gun evidence against the inherently prejudicial nature
of gun evidence." The dissenting opinion improperly presumes the circuit court failed to analyze
the evidence, even though the record confirms the circuit court considered the logical and legal
relevance of this evidence when it considered Wood's motion in limine and when objections were
made at trial.

13

change during trial. See Hancock v. Shook, 100 S.W.3d 786, 802 (Mo. banc 2003). Despite
the interlocutory nature of the ruling, counsel chose to address the folder in opening
statements, and one consequence of that strategic decision was to open the door to the
admission of the evidence at trial. State v. Mickle, 164 S.W.3d 33, 57 (Mo. App. 2005);
see also Bucklew v. State, 38 S.W.3d 395, 401 (Mo. banc 2001) (concluding defense
counsel opened the door to the admission of evidence the defendant previously committed
an assault by mentioning background facts of the assault during opening statements).
D. Victim impact evidence properly admitted
Wood claims the circuit court abused its discretion by overruling his objection to
the state's penalty phase evidence regarding the effect of Hailey's murder on the Springfield
community and allowing the state to question witnesses in a manner intended to elicit
emotional responses. Specifically, Wood challenges testimony that more than 10,000
people attended a vigil for Hailey, Hailey's murder changed Springfield from a town to a
city, and "countless parents" indicated they feared for their children's safety.
"Victim impact evidence is admissible under the United States and Missouri
Constitutions." State v. Driskill, 459 S.W.3d 412, 431 (Mo. banc 2015). "The state is
permitted to show the victims are individuals whose deaths represent a unique loss to
society and to their family and that the victims are not simply faceless strangers." Id.
Further, § 565.030.4 provides penalty phase "evidence may include, within the discretion
of the court, evidence concerning the murder victim and the impact of the offense upon the
family of the victim and others." "Victim impact evidence violates the constitution if it is

14

so unduly prejudicial that it renders the trial fundamentally unfair." Driskill, 459 S.W.3d
at 431. (internal quotation omitted).
The testimony regarding the vigil was relevant to show Hailey's murder resulted in
a "unique loss to society" and she was "not simply a faceless stranger[.]" Id. Similarly,
the testimony that Hailey's murder changed Springfield from a town to a city and parents
now feared for the children's safety was relevant to the impact of the offense on "the family
of the victim and others." Section 565.030.4 (emphasis added). 8 There is no specific
constitutional limitation on the consideration of community impact, and § 565.030.4
broadly and expressly authorizes evidence of the impact on "others."
Finally, Wood's argument that the state's questioning was aimed solely at eliciting
emotional responses fails because a defendant is not necessarily prejudiced by the fact
some jurors or audience members in a murder trial exhibited emotional responses to
admissible evidence. The circuit court considered the fact some jurors and an audience
member wept, but concluded it was simply an "emotional response to the testimony which
again I would put in the category of being natural. Nothing disruptive about it to anyone."
In other words, the argument was "emotionally charged" because "the facts of this case are
inherently emotionally charged." State v. McFadden, 391 S.W.3d 408, 425 (Mo. banc
2013). The evidence reflected the brutal facts of the case, and jurors and audience members

8

Wood asserts the pastor's testimony regarding what parents told him was inadmissible hearsay.
"To properly preserve an issue for an appeal, a timely objection must be made during trial." State
v. McFadden, 369 S.W.3d 727, 740 (Mo. banc 2012) (internal quotation omitted). Wood did not
preserve a hearsay argument because he did not make a specific hearsay objection to the pastor's
testimony.

15

cannot be expected to share Wood's stoicism. The circuit court did not abuse its discretion
by overruling Wood's objection to the penalty phase victim impact evidence.
II. Closing Argument
Wood claims the circuit court plainly erred during the penalty phase closing
argument by permitting the state to argue the jury could speak for Hailey and her family
by sentencing Wood to death. Wood timely objected, but did not raise the issue in his
motion for a new trial. "An issue is not preserved for appellate review if the issue is not
included in the motion for a new trial." State v. Clay, 533 S.W.3d 710, 718 (Mo. banc
2017).

This Court's consideration of Wood's claim is discretionary and limited to

determining whether a plain error resulted in a "manifest injustice or miscarriage of
justice[.]" Rule 30.20.
The threshold issue in plain error review is whether the circuit court's error was
facially "evident, obvious, and clear." State v. Jones, 427 S.W.3d 191, 195 (Mo. banc
2014) (internal quotation omitted). If the appellant establishes a facially "evident, obvious,
and clear" error, then this Court will consider whether the error resulted in a manifest
injustice or miscarriage of justice. Id. To obtain a new trial on direct appeal based on a
claim of plain error, the appellant must show "the error was outcome determinative." State
v. Baxter, 204 S.W.3d 650, 652 (Mo. banc 2006) (internal quotation omitted). This Court
rarely finds plain error in closing argument, and reversal is warranted only if the defendant
shows the improper argument "had a decisive effect on the jury’s determination."
McFadden, 369 S.W.3d at 747 (internal quotation omitted).

16

"The entire record is

considered when interpreting a closing argument, not an isolated segment." Id. (internal
quotation omitted).
Before trial, Wood argued Hailey's mother should be allowed to testify she wanted
Wood sentenced to life without parole. The state objected, arguing a family member's
opinions regarding sentencing are inadmissible. The circuit sustained the state's objection,
and none of Hailey's family members testified regarding their sentencing preferences.
During the penalty phase closing argument, the state recounted the circumstances
of Hailey's death and argued the evidence warranted a death sentence. The state then
asserted, "With your verdict, sentencing [Wood] to the ultimate punishment, you speak for
Hailey. . . ."

Wood objected.

The state continued, stating, "You speak for her

family . . . ." Wood once again objected. The circuit court overruled Wood's objection.
The state continued, arguing Wood "not only brutalized Hailey, but he damaged her family,
her brother, her school, her entire community, and changed our community, and your
verdict will send a message to this defendant." The state concluded, "For all those harms,
this is the case. This is the case that calls for the ultimate punishment, and I ask you to
sentence the defendant to death."
Wood relies on State v. Roberts, 838 S.W.2d 126 (Mo. App. 1992), and Bosse v.
Oklahoma, 137 S. Ct. 1 (2016), for the proposition the state's reference to Hailey and her
family in closing argument resulted in a manifest injustice. Both cases are distinguishable.
In Roberts, the state's argument that the jury spoke for the victim's family was
improper because there was no evidence the victim had any family members. 838 S.W.2d

17

at 131. In this case, there was ample evidence of the devastating impact Hailey's murder
had on her family.
In Bosse, the defendant objected to the state asking three of the victim's family
members to recommend a sentence. 137 S. Ct. at 2. All three testified and recommended
death. Id. Under these circumstances, the United States Supreme Court held admitting
evidence of the family's sentencing recommendations violated the Eighth Amendment. Id.
Bosse is distinguishable because none of Hailey's family members testified regarding their
sentencing preference.
The crux of the state's argument was the brutality of Hailey's murder and its impact
on her family and the community required the jury to "send a message" that such actions
deserve a death sentence. 9 "This Court has held that 'send a message' statements are
permissible." McFadden, 391 S.W.3d at 425. Further, the state did not explicitly argue
any of Hailey's family members wanted Wood to receive the death penalty. The state's

9

The dissenting opinion's argument rests on vigor alone, for it does not cite a single case holding
that, during the course of a closing argument detailing the impact of the murder on the victim's
family and community, a single sentence fragment referring to the victim's family constitutes plain
error. Bosse did not hold a fleeting reference to the family's wishes during closing argument results
in plain error. Bosse held it was error to permit three family members to testify directly to the jury
that they wanted the defendant sentenced to death. Bosse, 137 S. Ct. at 2. In State v. Barnett, 103
S.W.3d 765, 772 (Mo. banc 2003), this Court held defense counsel was not ineffective for
declining to call the victims' family to testify in favor of a life sentence because such evidence is
"irrelevant." In State v. Williams, 119 S.W.3d 674, 681 (Mo. App. 2003), the court of appeals
found plain error because the circuit court erroneously excluded an exculpatory recording on the
basis of a discovery sanction, and the state then argued there was no exculpatory evidence. Finally,
in State v. Weiss, 24 S.W.3d 198, 204 (Mo. App. 2000), the court of appeals held the state's
misrepresentations regarding existence of possibly exonerating documents constituted plain error.
As these cases illustrate, the dissenting opinion relies exclusively on materially distinguishable
cases to take the extraordinary step of finding plain error in closing argument by divorcing the
state's brief reference to Hailey's family from the broader context of a closing argument detailing
the impact on the community.

18

isolated reference to speaking for Hailey and her family in the context of making a
permissible "send a message" argument by imposing a death sentence did not change the
outcome of this case. Wood has not shown a manifest injustice justifying the rare step of
finding plain error based on statements made in closing argument. State v. Anderson, 79
S.W.3d 420, 439 (Mo. banc 2002) ("Statements made in closing argument will only rarely
amount to plain error.").
III. Juror Properly Stricken for Cause
Wood claims the circuit court abused its discretion by sustaining the state’s motion
to strike a venireperson for cause during the death qualification voir dire.
The circuit court's "ruling on a challenge for cause will not be disturbed on appeal
unless it is clearly against the evidence and constitutes a clear abuse of discretion." State
v. Deck, 303 S.W.3d 527, 535 (Mo. banc 2010) (internal quotation omitted). "Deference
to the trial court is appropriate because it is in a position to assess the demeanor of the
venire, and of the individuals who compose it, a factor of critical importance in assessing
the attitude and qualifications of potential jurors." McFadden, 369 S.W.3d at 738 (internal
quotation omitted). "The qualifications for a prospective juror are not determined from a
single response, but rather from the entire examination." Deck, 303 S.W.3d at 535.
In her jury questionnaire, the venireperson stated she opposed the death penalty.
On a scale of one to seven, with one denoting strong opposition to the death penalty and
seven denoting strong support, she rated her position as two. The venireperson explained
she opposed the death penalty because she believed it was imposed disproportionately on

19

"poor people or minorities." She stated life without parole is the best option, and said she
is a "very peaceful and non-violent believer." Finally, she stated the death penalty is
"barbaric" and "We should not stoop to the level of a criminal. We are better than that."
During voir dire, the venireperson stated she could consider the death penalty, but
reiterated she is "strongly against it in general" because it is not distributed fairly. She
stated she did not believe the state commits a wrong by executing someone, but explained
"we should not act as criminals ourselves in ending a life. I feel like, you know, it's – I
guess I don't believe in the eye for an eye type of punishment. I'm not sure if that answers
your question." She stated, "I could consider it even though I am, on principle, opposed in
general." The venireperson stated, if she were jury foreman, her conscience would not
permit her to sign a death verdict, but she could if it indicated the jury unanimously agreed
to the verdict.
The state asked the venireperson if her conscience would "let you vote in favor of a
death verdict?" She responded, "I think that's really what I meant, is my gut instinct is no,
my conscience wouldn't – I'm against the death penalty." The state asked, "your gut instinct
is you could not vote for it?" The venireperson responded "Yes, that's right."
During surrebuttal voir dire, the venireperson told defense counsel she did not
believe in the death penalty and would have a very hard time making that call. She stated
she would consider the death penalty if certain things fell into place and that she owed it to
the victim to listen to both sides.
The state moved to strike the venireperson for cause. Wood objected. The circuit
court sustained the state's motion. The court noted the venireperson's answers that her
20

conscience would not let her vote for the death penalty, and that she could consider the
death penalty only because she owed it to the victim's family.
Just as the defendant has an interest in an impartial jury without an uncommon
willingness to impose a death sentence, the state has a "strong interest in having jurors who
are able to apply capital punishment within the framework state law prescribes." White v.
Wheeler, 136 S. Ct. 456, 460 (2015) (internal quotation omitted). When there is ambiguity
in the venireperson's statements, the circuit court can resolve the ambiguity in favor of the
state. Id.; State v. Roberts, 948 S.W.2d 577, 597 (Mo. banc 1997).
After a complete review of the juror questionnaire and the record of the entire
examination rather than individual responses, the circuit court was faced with a situation
on which it was uncertain whether the venireperson could "apply capital punishment within
the framework state law prescribes." Wheeler, 136 S. Ct. at 460. The circuit court did not
abuse its discretion by resolving the ambiguity in the state's favor and sustaining the state's
motion to strike the venireperson for cause.
IV. Constitutional Arguments
Wood claims § 565.030 violates his Sixth Amendment right to a jury trial by
permitting the circuit court to impose a death sentence when the jury deadlocks on
punishment. Wood also claims § 565.030 violates his right to be free from cruel and
unusual punishment pursuant to the Eighth Amendment and article I, § 21 of the Missouri
Constitution because the statute permits the circuit court to impose a death sentence
following the jury's deadlock on punishment. Finally, Wood claims § 565.032 fails to
sufficiently narrow the class of persons eligible for a death sentence.
21

"Challenges to the constitutional validity of a state statute are subject to de novo
review." State v. Shanklin, 534 S.W.3d 240, 241 (Mo. banc 2017) (internal quotation
omitted). "A statute is presumed constitutional and will be found unconstitutional only if
it clearly and unambiguously contravenes a constitutional provision." Id. at 241-42
(internal quotation omitted). "The person challenging the validity of the statute has the
burden of proving the act clearly and undoubtedly violates the constitutional limitations."
Id. at 242 (internal quotation omitted).
A. Sixth Amendment
Section 565.030.4 establishes the procedure for the penalty phase of a first-degree
murder trial when the state does not waive the death penalty. Assuming the defendant is
not intellectually disabled, § 565.030.4(1), the defendant is eligible for a death sentence
only when the jury finds at least one statutory aggravating circumstance beyond a
reasonable doubt.

§ 565.030.4(2).

When the jury finds a statutory aggravating

circumstance, the jury proceeds to the weighing step, and must impose a life sentence if it
"concludes" evidence in mitigation outweighs the evidence in aggravation. § 565.030.4(3).
If the jury concludes the evidence in mitigation does not outweigh evidence in aggravation,
the jury "decides" whether to "assess and declare the punishment at death." § 565.030.4(4).
If the jury deadlocks on punishment, the circuit court determines punishment by following
"the same procedure as set out in this section[.]" § 565.030.4. Wood argues this sentencing
procedure violated his Sixth Amendment right to a jury trial because it permitted the circuit
court to impose a death sentence following the jury's deadlock on punishment.

22

Wood's argument was considered and rejected by this Court. State v. Shockley, 410
S.W.3d 179, 198-99 (Mo. banc 2013). As in this case, the jurors in Shockley answered
special interrogatories listing several statutory aggravators that they found unanimously
beyond a reasonable doubt. Id. at 198. As in this case, the jurors in Shockley also stated
they did not conclude unanimously that the mitigating circumstances outweighed those in
aggravation. Id. Like Wood, Shockley argued § 565.030.4 violates the Sixth Amendment
by permitting the circuit court, rather than the jury, to weigh the aggravators and mitigators
and determine punishment if the jury is unable to reach a penalty phase verdict. Id. This
Court held:
Permitting a judge to consider the presence of statutory aggravators and to
weigh mitigating evidence against that in aggravation in deciding whether to
impose a death sentence when the jury did not unanimously agree on
punishment does not negate the fact that the jury already had made the
required findings that the State proved one or more statutory aggravators
beyond a reasonable doubt and that it did not unanimously find that the
factors in mitigation outweighed those in aggravation. Rather, the statute
provides an extra layer of findings that must occur before the court may
impose a death sentence.
Id. at 198-99. Shockley establishes that, when the jury finds the facts making a defendant
eligible for a death sentence, the Sixth Amendment does not prohibit the circuit court from
resolving the jury's penalty phase deadlock by imposing a death sentence. Id. at 199 n.11;
see also State v. McLaughlin, 265 S.W.3d 257, 264 (Mo. banc 2008).
The jury unanimously found beyond a reasonable doubt the existence of six
aggravating factors:
The murder of Hailey involved torture and depravity; that the defendant
killed Hailey after she was bound or otherwise rendered helpless by the
23

defendant, and the defendant thereby exhibited a callous disregard for the
sanctity of all human life;
The defendant's selection of the person he killed was random and without
regard to the victim’s identity and that defendant’s killing of Hailey thereby
exhibited a callous disregard for the sanctity of human life;
The murder of Hailey was committed for the purpose of avoiding arrest;
The murder of Hailey was committed while the defendant was engaged in
rape;
The murder of Hailey was committed while the defendant was engaged in
sodomy;
The murder of Hailey was committed while the defendant was engaged in
kidnapping;
Hailey was a witness or potential witness of a pending investigation of the
kidnapping of Hailey.
The jury did not unanimously determine the mitigating circumstances outweighed the
aggravating circumstances and deadlocked on punishment. The circuit court resolved the
deadlock by accepting and reciting the jury's findings that the state proved six aggravating
factors beyond a reasonable doubt. The circuit court then concluded the aggravating
circumstances outweighed mitigating circumstances, and decided a death sentence was
appropriate.
Wood argues this Court must reexamine Shockley and McLaughlin in light of Hurst
v. Florida, 136 S. Ct. 616 (2016). Wood argues Hurst prohibits Missouri's death penalty
by allowing the circuit court, following the jury's deadlock on punishment, to find the
aggravating circumstances outweighed the mitigating circumstances. Wood's argument is
that the weighing step is a factual finding constitutionally entrusted to the jury.
24

The Sixth Amendment, "in conjunction with the Due Process Clause, requires that
each element of a crime be proved to the jury beyond a reasonable doubt." Alleyne v.
United States, 570 U.S. 99, 104 (2013). In addition to the facts underlying the charged
offense, an "element" includes any fact that "expose[s] the defendant to a greater
punishment than that authorized by the jury's guilty verdict[.]"

Apprendi v. New

Jersey, 530 U.S. 466, 494 (2000). Therefore, "[w]hen a finding of fact alters the legally
prescribed punishment so as to aggravate it, the fact necessarily forms a constituent part of
a new offense and must be submitted to the jury." Alleyne, 570 U.S. at 114-15.
In death penalty cases, the existence of an aggravating circumstance exposes the
defendant to a greater punishment and, therefore, is a factual element the jury must find
beyond a reasonable doubt. Ring v. Arizona, 536 U.S. 584, 604 (2002). In Ring, the statute
at issue provided the trial judge could impose a death sentence only after independently
finding at least one aggravating circumstance. Id. at 592-93. The statute violated the Sixth
Amendment right to a jury trial because it authorized the trial judge alone to find
aggravating circumstances making the defendant eligible for a death sentence. Id. at 609.
In Hurst, 136 S. Ct. 616, 624 (2016), the United States Supreme Court applied Ring
to invalidate Florida's statutory death penalty sentencing procedure because it authorized
"the judge alone" to find the existence of aggravating circumstances. Under Florida's
procedure, the jury recommended an "advisory sentence" without specifying the factual
basis for its recommendation. Id. at 620. Following the jury's advisory sentence, Florida's
statute required the judge to impose a sentence of life imprisonment or death based on "the
trial judge’s independent judgment about the existence of aggravating and mitigating
25

factors[.]" Id. (internal quotation omitted). Because of the jury's limited, advisory role,
Florida juries did "not make specific factual findings with regard to the existence of
mitigating or aggravating circumstances," and the trial judge assumed the "central and
singular role" in finding the facts necessary to impose a death sentence. Id. at 622. Given
this procedural framework, the jury in Hurst found no specific aggravating circumstance,
but nonetheless returned a non-unanimous advisory sentence recommending a death
sentence. Id. at 620. The trial judge independently found the facts supporting two specific
statutory aggravating circumstances and sentenced the defendant to death. Id.
Hurst held Florida's death penalty sentencing procedure violated the Sixth
Amendment because it "required the judge alone to find the existence of an aggravating
circumstance[.]" Id. at 624 (emphasis added). Hurst emphasized the limited scope of its
holding by overruling Spaziano v. Florida, 468 U.S. 447 (1984), and Hildwin v. Florida,
490 U.S. 638 (1989), only "to the extent they allow a sentencing judge to find an
aggravating circumstance, independent of a jury's factfinding, that is necessary for
imposition of the death penalty." Id. (emphasis added). Hurst is a straightforward
application of Ring and stands only for the proposition that, in a jury tried case, aggravating
circumstances are facts that must be found by the jury beyond a reasonable doubt. Hurst
does not hold the determination of whether mitigating factors outweigh aggravating factors
or that death is an appropriate sentence are factual elements that must be found by a jury. 10

10

See In re Bohannon, 222 So. 3d 525, 531-33 (Ala. 2016) (Hurst requires only that the jury find
the existence of an aggravating factor to make a defendant death eligible); see also Lee v. Comm’r,
Ala. Dep’t of Corr., 726 F.3d 1172, 1198 (11th Cir. 2013) ("Ring does not foreclose the ability of
the trial judge to find the aggravating circumstances outweigh the mitigating circumstances").

26

Wood's argument ignores the limited holding in Hurst and settled precedent that a
death sentence requires two distinct determinations: "the eligibility decision and the
selection decision." Tuilaepa v. California, 512 U.S. 967, 971 (1994). The eligibility
decision is based on factual findings that the defendant has a conviction "for which the
death penalty is a proportionate punishment" and the existence of an "aggravating
circumstance (or its equivalent) at either the guilt or penalty phase." Id. at 971-72 (internal
quotation omitted). The factual findings underlying the eligibility decision are verifiable;
they either do or do not exist. Kansas v. Carr, 136 S. Ct. 633, 642 (2016). Unlike the
factual findings underlying the eligibility decision, the selection decision requires the
sentencer to consider "the character of the individual and the circumstances of the crime"
and "relevant mitigating evidence[.]" Tuilaepa, 512 U.S. at 972. Once the jury finds the
facts showing the defendant is eligible for a death sentence, the sentencer has "unbridled
discretion" in making the selection decision. Id. at 979-80.
The selection decision is fundamentally different than the eligibility decision.
"[T]he ultimate question [of] whether mitigating circumstances outweigh aggravating
circumstances is mostly a question of mercy[.]" Carr, 136 S. Ct. at 642. Unlike the factual
finding that an aggravating circumstance does or does not exist, the selection decision is a
discretionary judgment, and "jurors will accord mercy if they deem it appropriate, and
withhold mercy if they do not, which is what our case law is designed to achieve." Id. 11

11

While Tuilaepa and Carr involved Eighth Amendment challenges to the burden of proof in
death penalty sentencing, both cases establish the selection decision is not itself a factual element
and is, instead, a discretionary judgment. These cases are instructive because the Sixth

27

Wood's case illustrates this concept. There is no factually verifiable answer to the
question of whether Wood's lack of a significant criminal record and struggle with
depression outweigh the fact he raped and sodomized Hailey before shooting her in the
back of the neck at point blank range and discarding her body in a plastic tub. Neither a
jury nor a judge can prove or disprove a conclusion the evidence on one side outweighs the
evidence on the other.

After the jury found the existence of multiple aggravating

circumstances beyond a reasonable doubt, the determination of whether Wood's personal
circumstances mitigated the brutality of his crime was a discretionary judgment call that
neither the state nor federal constitution entrusts exclusively to the jury. 12
This Court's decision in State v. Whitfield, 107 S.W.3d 253 (Mo. banc 2003), does
not dictate a different result. In Whitfield, this Court applied Ring and recalled the mandate
in a death penalty case because the jury did not decide all the facts necessary for a death
sentence. 107 S.W. at 261-62. Although Whitfield properly recognized the existence or
non-existence of an aggravating circumstance is a factual finding the jury must make,
Whitfield erroneously suggested weighing the aggravating and mitigating circumstances is
also a factual finding reserved for the jury. Id. at 261, 270. This Court's more recent cases
corrected this aspect of Whitfield, and now uniformly recognize the weighing step is not a
factual finding that must be found by the jury beyond a reasonable doubt.

Amendment requires only that the jury find the factual elements exposing the defendant to a greater
punishment. See Ring, 536 U. S. at 604.
12
Wood relies on Rauf v. State, 145 A.3d 430, 432-33 (Del. 2016), and Hurst v. State, 202 So. 3d
40 (Fla. 2016), for his proposition that determining whether the aggravating circumstances
outweigh the mitigating circumstances is a factual element the Sixth Amendment requires the jury
to find. These cases are not binding, and both are wrongly decided.

28

In Zink v. State, 278 S.W.3d 170, 192-93 (Mo. banc 2009), this Court held
appellate counsel was not ineffective for declining to argue the penalty phase instructions
violated Ring and Apprendi by not instructing the jury to find beyond a reasonable doubt
that mitigating circumstance outweighed aggravating circumstances. Zink held appellate
counsel was not ineffective for declining to raise this "meritless" claim because the
weighing step is not "a finding of a fact that may increase Mr. Zink's penalty. Instead, the
jury is weighing evidence and all information before them." Id. at 193.
In State v. Anderson, 306 S.W.3d 529, 540 (Mo. banc 2010), this Court rejected the
defendant's argument that the existence and weight of mitigating circumstances were facts
that must be proven to the jury beyond a reasonable doubt. This Court reasoned Ring and
Apprendi only require the state to prove beyond a reasonable doubt factual elements,
including statutory aggravating circumstances. Id. Therefore, "neither the constitution nor
the Missouri death penalty statute require that the State prove the weighing step beyond a
reasonable doubt." Id.
In State v. Dorsey, 318 S.W.3d 648, 653 (Mo. banc 2010), this Court cited Zink and
again held "the jury's 'weighing' of the aggravation and mitigation evidence is not
subject to proof beyond a reasonable doubt because it is not a factual finding that
increases the potential range of punishment." (Emphasis added). Similarly, in State v.
Nunley, 341 S.W.3d 611, 626 n.3 (Mo. banc 2011), this Court noted a number of federal
and state cases holding the weighing step is not a factual determination implicating the

29

Sixth Amendment right to a jury trial. 13 To the extent Whitfield presumes the weighing
step is a factual finding constitutionally reserved for the jury, it should no longer be
followed. 14

13

Nunley cited the following cases: United States v. Sampson, 486 F.3d 13, 32 (1st Cir. 2007)
("As other courts have recognized, the requisite weighing constitutes a process, not a fact to be
found."); United States v. Purkey, 428 F.3d 738, 750 (8th Cir. 2005) (characterizing the weighing
process as "the lens through which the jury must focus the facts that it has found" to reach its
individualized determination); Ford v. Strickland, 696 F.2d 804, 818 (11th Cir. 1983) ("While the
existence of an aggravating or mitigating circumstance is a fact susceptible to proof under a
reasonable doubt or preponderance standard, ... the relative weight is not."); Gray v. Lucas, 685
F.2d 139, 140 (5th Cir. 1982) ("[T]he reasonable doubt standard simply has no application to the
weighing of aggravating and mitigating circumstances."); Higgs v. United States, 711 F.Supp.2d
479, 540 (D. Md. 2010) ("Whether the aggravating factors presented by the prosecution outweigh
the mitigating factors presented by the defense is a normative question rather than a factual one.");
State v. Fry, 126 P.3d 516, 534 (N.M.2005) ("[T]he weighing of aggravating and mitigating
circumstances is thus not a 'fact that increases the penalty for a crime beyond the prescribed
statutory maximums."); Commonwealth v. Roney, 866 A.2d 351, 360 (Pa. 2005) (finding Apprendi
does not apply to weighing evidence because it "is a function distinct from fact-finding"); Ritchie
v. State, 809 N.E.2d 258, 266 (Ind. 2004) (concluding the relative weight of aggravating and
mitigating circumstances is a balancing process, not a fact that must be proved beyond a reasonable
doubt); Brice v. State, 815 A.2d 314, 322 (Del. 2003) (finding Ring does not apply to the weighing
phase because weighing "does not increase the maximum punishment"), overruled by Rauf v. State,
145 A.3d 430, 433 (Del. 2016) (holding Hurst requires the jury to weigh aggravating and
mitigating circumstances); State v. Gales, 658 N.W.2d 604, 629-30 (Neb. 2003) ("[W]e do not
read either Apprendi or Ring to require that the determination of mitigating circumstances, the
balancing function, or proportionality review be undertaken by a jury."); Oken v. State, 835 A.2d
1105, 1158 (Md. 2002) ("[T]he weighing process never was intended to be a component of a 'fact
finding' process[.]"); Ex parte Waldrop, 859 So.2d 1181, 1190 (Ala. 2002) ("Ring and Apprendi
do not require that a jury weigh the aggravating circumstances and the mitigating circumstances.")
14
Wood claims the special interrogatory showing the jury did not unanimously find the evidence
in mitigation outweighed the evidence in aggravation does not show what the jury found and,
instead, shows only what the jury did not find. Wood argues it is possible eleven jurors found the
mitigating circumstances outweighed the aggravating circumstances. Wood's argument is
irrelevant to his Sixth Amendment claim because it is premised on the faulty proposition the
weighing step is a factual finding only the jury can make.
Neither Wood's point relied on nor his argument raised the additional meritless argument
urged by the dissenting opinion. The dissenting opinion sua sponte asserts, as a matter of statutory
interpretation, that § 565.030.4 requires the jury to make a factual finding that the mitigating
evidence either does or does not outweigh the aggravating evidence. The dissenting opinion
reasons that holding the weighing step is not a factual finding conflates the jury's role in the third
and fourth steps. In other words, the dissenting opinion reasons that unless the weighing step is a
factual finding, it is identical to the discretionary "mercy" determination in the fourth step.

30

Wood also cites Whitfield for the proposition that the § 565.030.4 deadlock
procedure is equivalent to the Florida death penalty procedure held unconstitutional in
Hurst. Wood relies on Whitfield to argue the § 565.030.4 deadlock procedure provides the
jury’s factual findings "simply disappear," and the circuit court independently finds the
facts necessary to impose a death sentence. 107 S.W.3d at 271.
In Whitfield, the record did not demonstrate whether the jury made the required
factual findings. Id. at 270. The resulting death sentence was not based on the jury's factual
findings and, instead, was "entirely based" on the circuit court's findings. Id. at 261. In
that circumstance, when there was no record the jury made the constitutionally required
findings in the first place, Whitfield concluded the circuit court's "independent" findings
resulted in a death sentence that violated the Sixth Amendment. Id. at 261.
Rather than limiting its holding to the determination there was no record the jury
made any constitutionally required findings, Whitfield unnecessarily extrapolated a general
rule that the § 565.030.4 deadlock procedure always eliminates the jury’s factual findings
and replaces them with the circuit court's factual findings. See id. at 271. Section
565.030.4, however, provides only that if the jury deadlocks on punishment, the court is to
"follow the same procedure as set out in this section[.]" 15 Requiring the circuit court to
The plain language of § 565.030.4, however, establishes distinct inquiries for the jury at both steps.
The weighing step balances the mitigating and aggravating circumstances, while the final step
requires the jury to engage in a separate inquiry to determine "under all the circumstances" whether
a death sentence is warranted. This Court's conclusion that neither of these determinations is a
factual finding constitutionally entrusted to the jury does not mean they are the same.
15
Following Whitfield, the jury instructions in capital cases were revised to require jurors to answer
special interrogatories indicating whether they found a statutory aggravating factor to be present,
and if so, what factor, and whether they found that mitigating evidence did not outweigh
aggravating evidence. Shockley, 410 S.W.3d at 199 n.11. Section 565.030.4 provides:

31

"follow the same procedure" does not necessarily mean the jury's constitutionally required
findings "simply disappear" or that the circuit court must displace the jury's constitutionally
required factual findings with the court's independent findings. The Sixth Amendment

If the trier at the first stage of a trial where the death penalty was not waived finds
the defendant guilty of murder in the first degree, a second stage of the trial shall
proceed at which the only issue shall be the punishment to be assessed and declared.
Evidence in aggravation and mitigation of punishment, including but not limited to
evidence supporting any of the aggravating or mitigating circumstances listed in
subsection 2 or 3 of section 565.032, may be presented subject to the rules of
evidence at criminal trials. Such evidence may include, within the discretion of the
court, evidence concerning the murder victim and the impact of the offense upon
the family of the victim and others. Rebuttal and surrebuttal evidence may be
presented. The state shall be the first to proceed. If the trier is a jury it shall be
instructed on the law. The attorneys may then argue the issue of punishment to the
jury, and the state shall have the right to open and close the argument. The trier
shall assess and declare the punishment at life imprisonment without eligibility for
probation, parole, or release except by act of the governor:
(1) If the trier finds by a preponderance of the evidence that the defendant
is intellectually disabled; or
(2) If the trier does not find beyond a reasonable doubt at least one of the
statutory aggravating circumstances set out in subsection 2 of section 565.032; or
(3) If the trier concludes that there is evidence in mitigation of punishment,
including but not limited to evidence supporting the statutory mitigating
circumstances listed in subsection 3 of section 565.032, which is sufficient to
outweigh the evidence in aggravation of punishment found by the trier; or
(4) If the trier decides under all of the circumstances not to assess and
declare the punishment at death. If the trier is a jury it shall be so instructed.
If the trier assesses and declares the punishment at death it shall, in its findings or
verdict, set out in writing the aggravating circumstance or circumstances listed in
subsection 2 of section 565.032 which it found beyond a reasonable doubt. If the
trier is a jury it shall be instructed before the case is submitted that if it is unable to
decide or agree upon the punishment the court shall assess and declare the
punishment at life imprisonment without eligibility for probation, parole, or release
except by act of the governor or death. The court shall follow the same procedure
as set out in this section whenever it is required to determine punishment for murder
in the first degree.

32

does not prohibit the circuit court during sentencing from finding facts previously found
by the jury. State v. Johnson, 524 S.W.3d 505, 512 (Mo. banc 2017). As this Court
observed in Shockley, § 565.030.4 "provides an extra layer of findings that must occur
before the court may impose a death sentence." 410 S.W.3d at 198-99. 16
Missouri's death penalty sentencing procedure is fundamentally different from the
Florida statute the Supreme Court invalidated in Hurst.

Unlike the Florida statute,

§ 565.030 does not limit the jury to providing an "advisory sentence" without making the
constitutionally required factual findings rendering the defendant eligible for a death
sentence. When, as in this case, the jury deadlocks on punishment, it has necessarily
already made the constitutionally required factual finding of an aggravating circumstance.
When the circuit court follows "the same procedure set out in this section" to resolve the
jury's deadlock on punishment, the constitutional role of the jury as the finder of fact has
already been fulfilled and the circuit court may only impose a death sentence when it
confirms the finding of at least one aggravating circumstance and makes the non-factual,
discretionary determinations that the aggravating circumstances outweigh mitigating
circumstances and death is an appropriate sentence. This Court has repeatedly held neither
of these determinations is a factual finding that must be performed by the jury. Shockley,

16

Because the expansive interpretation of § 565.030.4 in Whitfield and advocated for by Wood is
not compelled by the plain language of the statute, it violates the "accepted canon of statutory
construction that if one interpretation of a statute results in the statute being constitutional while
another interpretation would cause it to be unconstitutional, the constitutional interpretation is
presumed to have been intended." Blaske v. Smith & Entzeroth, Inc., 821 S.W.2d 822, 838-39
(Mo. banc 1991).

33

410 S.W.3d at 198-99; Dorsey, 318 S.W.3d at 653; Anderson, 306 S.W.3d at 540; Zink,
278 S.W.3d at 193. Hurst does not hold or imply otherwise. The § 565.030.4 penalty
phase deadlock procedure does not violate the Sixth Amendment.
B. Eighth Amendment
Wood claims § 565.030.4 violates the Eighth Amendment and article I, § 21 of the
Missouri Constitution because "evolving standards of decency" prohibit a judge from
imposing a death sentence after the jury finds aggravating circumstances but deadlocks on
punishment. The Eighth Amendment and article I, § 21 of the Missouri Constitution
provide the same protection against cruel and unusual punishment. State v. Nathan, 522
S.W.3d 881, 882 n.2 (Mo. banc 2017); State v. Lee, 841 S.W.2d 648, 654-55 (Mo. banc
1992). Wood asserts § 565.030.4 is unconstitutional because Missouri's procedure is "an
extreme outlier," with only Indiana employing a similar process.
The Eighth Amendment provides: "Excessive bail shall not be required, nor
excessive fines imposed, nor cruel and unusual punishments inflicted." "The Cruel and
Unusual Punishments Clause prohibits the imposition of inherently barbaric punishments
under all circumstances." Graham v. Florida, 560 U.S. 48, 59 (2010). "While the Eighth
Amendment doesn't forbid capital punishment, it does speak to how States may carry out
that punishment, prohibiting methods that are cruel and unusual." Bucklew v. Precythe,
139 S. Ct. 1112, 1123 (2019) (internal quotation omitted).
In addition to categorically prohibiting cruel and unusual methods of punishment,
the United States Supreme Court has construed the Eighth Amendment to prohibit
punishments disproportionate to the offense because "[t]he concept of proportionality is
34

central to the Eighth Amendment." Graham, 560 U.S. at 59. In the death penalty context,
proportionality requires "that capital punishment must be limited to those offenders who
commit a narrow category of the most serious crimes and whose extreme culpability makes
them the most deserving of execution." Kennedy v. Louisiana, 554 U.S. 407, 420 (2008)
(internal quotation omitted). Therefore, when the method of execution is not at issue, the
analysis of Eighth Amendment challenges to a death sentence begins with "two subsets,
one considering the nature of the offense, the other considering the characteristics of the
offender." Graham, 560 U.S. at 60.
Wood's argument that the circuit court cannot resolve the jury's deadlock and
impose a death sentence does not state an Eighth Amendment claim. First, there is no
dispute the nature of the offense rendered Wood constitutionally eligible for a death
sentence. "To render a defendant eligible for the death penalty in a homicide case, we have
indicated that the trier of fact must convict the defendant of murder and find one
'aggravating circumstance' (or its equivalent) at either the guilt or penalty phase." Tuilaepa,
512 U.S. at 971-72. The jury found beyond a reasonable doubt Wood committed a
first-degree murder and also found multiple aggravating circumstances.
Second, the fact the circuit court resolved the jury's penalty phase deadlock by
determining the mitigating factors did not outweigh the aggravating factors and sentencing
Wood to death does not relate to a "characteristic of the offender," like age or intellectual
disability.

See Roper v. Simmons, 543 U.S. 551, 578 (2005) (holding the Eighth

Amendment prohibits the death penalty for juvenile offenders); Atkins v. Virginia, 536 U.S.
304, 321 (2002) (holding the Eighth Amendment prohibits the death penalty for offenders
35

who are "mentally retarded"). As Wood notes, sentencing procedures that fail to provide
adequate standards to guide the sentencer's assessment of offender's characteristics may
violate the Eighth Amendment. See Hall v. Florida, 572 U.S. 701, 715-24 (2014) (holding
a statute requiring the defendant show an IQ score of 70 or below before being allowed to
present additional evidence of intellectual disability evidence violated the Eighth
Amendment). Wood's argument the Eighth Amendment prohibits the judge from resolving
the jury's penalty phase deadlock does not show § 565.030 fails to provide adequate
standards to guide the sentencer's assessment of the offender's characteristics and limit the
death penalty to the most culpable offenders. Instead, Wood's argument distills to a
recycled version of his meritless argument that the Sixth Amendment requires the jury to
find the aggravating circumstances outweigh the mitigating circumstances and that death
is an appropriate sentence. The § 565.030.4 deadlock procedure does not violate the Eighth
Amendment.
Finally, Wood argues the circuit court erred by overruling his pretrial objection that
§ 532.030 and § 532.032 are unconstitutional because they fail to genuinely narrow the
class of persons eligible for the death penalty to the most serious crimes and the most
culpable offenders. Wood asserts the 17 aggravating circumstances set forth in § 532.032
are too numerous, unconstitutionally broad, and vest prosecutors with too much discretion.
Wood cites no case supporting his arguments. This Court previously rejected similar
arguments, and does so once again. State v. Williams, 97 S.W.3d 462, 473-74 (Mo. banc
2003) (statutory aggravators not unconstitutionally broad); State v. Taylor, 18 S.W.3d 366,

36

376 (Mo. banc 2000) ("Prosecutors are given broad discretion in seeking the death
penalty").
V. Proportionality
Section 565.035.3 imposes an independent duty on this Court to undertake a
proportionality review to determine:
(1) Whether the sentence of death was imposed under the influence of
passion, prejudice, or any other arbitrary factor; and (2) Whether the
evidence supports the jury's or judge's finding of a statutory aggravating
circumstance as enumerated in subsection 2 of section 565.032 and any other
circumstance found; (3) Whether the sentence of death is excessive or
disproportionate to the penalty imposed in similar cases, considering both the
crime, the strength of the evidence and the defendant.
There is no indication Wood was sentenced to death as a result of passion, prejudice,
or any other arbitrary factor. The evidence vividly demonstrated how Wood brutally and
deliberately killed Hailey after abducting her, restraining her, and raping her. Wood's death
sentence resulted from the brutality of his crime, not the passion, prejudice or arbitrariness
of the sentencer.
The evidence also overwhelmingly supported the jury's unanimous finding beyond
a reasonable doubt of multiple aggravating circumstances. The evidence showed Wood
randomly selected Hailey, kidnapped her, raped and sodomized her, and then shot her at
point blank range while she was bound and helpless.
Finally, the death sentence in this case not disproportionate to the penalty imposed
in similar cases. This Court has affirmed a death sentence when the defendant murdered
the victim after raping the victim. Driskill, 459 S.W.3d at 433; Dorsey, 318 S.W.3d at 659:
McLaughlin, 265 S.W.3d at 277-78. This Court has affirmed death sentences resulting
37

from the murder of vulnerable, defenseless victims. Anderson, 306 S.W.3d at 544; State
v. Barton, 998 S.W.2d 19, 29 (Mo. banc 1999); State v. Clayton, 995 S.W.2d 468, 484
(Mo. banc 1999). Hailey was vulnerable and defenseless. She was a 10-year-old girl
randomly abducted by a grown man who then restrained her, raped her, and killed her
before bleaching her lifeless body and stuffing it in a plastic tub. Finally, this Court has
repeatedly affirmed death sentences in cases involving the heinous killing of a child. See
State v. Collings, 450 S.W.3d 741,768 (Mo. banc 2014) (concluding death sentence
proportionate when defendant sexually abused and murdered a 9-year-old girl); State v.
Johnson, 207 S.W.3d 24, 51 (Mo. banc 2006) (concluding death sentence proportionate
when defendant admitted he kidnapped, attempted to rape, and then killed a 6-year-old).
This Court's independent research has identified no cases showing a death sentence
for the random abduction, rape, and murder of a child is disproportionate. There is
overwhelming evidence of Wood's guilt and the existence of multiple aggravating
circumstances. The death sentence meets all statutory requirements.
Conclusion
The judgment is affirmed.

__________________________
Zel M. Fischer, Judge
Wilson, Russell, Powell, and Breckenridge, JJ., concur;
Stith, J., dissents in separate opinion filed;
Draper, C.J., concurs in opinion of Stith, J.;
Breckenridge, J., concurs in section III of the opinion of Stith, J.
38

SUPREME COURT OF MISSOURI
en banc

STATE OF MISSOURI,
Respondent,
v.
CRAIG M. WOOD,
Appellant.

)
)
)
)
)
)
)
)
)

No. SC96924

DISSENTING OPINION
I disagree with the principal opinion’s determination it was not prejudicial error to
permit the prosecution to introduce testimony and some 29 photographs of weapons and
gun accessories that were not used in the murder. I also disagree with its handling of the
prosecution’s intentional reference to evidence of the family’s wishes for a death sentence,
for such evidence is categorically inadmissible. The error was compounded by the fact the
prosecutor had purposely kept out evidence that the victim’s mother did not wish a death
sentence to be imposed.
Finally, while I agree the jury made the three factual determinations required by
section 565.030.4 and, therefore, the statute permitted the judge to determine whether to
impose a death sentence, I disagree with the principal opinion that the third of the four
questions the statute requires does not require the jury to make a factual determination. It

does. It requires the jury to weigh and balance the evidence supporting mitigation with the
evidence in aggravation – a weighing and balancing each of our jurors is called on to make
every day in our courts. The principal opinion’s conclusion otherwise makes question three
merely redundant of question four, which allows the jury to exercise mercy even if it has
not found any of the three facts set out in questions one, two or three that would have
required imposition of a life sentence.
The facts presented by the underlying crime are appalling and horrifying. This
makes it even more important to apply settled legal principles. “It is the duty of all courts
of justice to take care, for the general good of the community, that hard cases do not make
bad law.” Seilert v. McAnally, 122 S.W. 1064, 1068 (Mo. 1909). While I agree with much
of the principal opinion, I am concerned that the terrible nature of the crime makes this the
type of hard case about which Seilert cautioned.
I.

IT WAS AN ABUSE OF DISCRETION TO ALLOW TESTIMONY AND 29
PHOTOS OF GUNS AND GUN-RELATED ITEMS AT MR. WOOD’S HOUSE
THAT WERE UNRELATED TO THE CHARGED CRIME
“The objection to the introduction of weapons or other demonstrative evidence,

especially when not connected with the defendant or his crime, on the ground of unfair
prejudice is based on sound psychological and philosophical principles.” State v. Wynne,
182 S.W.2d 294, 288 (Mo. 1944). But the principal opinion finds no error in the admission
of what it terms “evidence of firearms of varying calibers and gauges found throughout
Wood’s home shortly after he killed Hailey.” Slip. Op. at 11. In so ruling, it fails to
acknowledge the staggering depth and breadth of unrelated gun evidence that the trial court

2

admitted. This is a horrific case. That does not justify the jettisoning of decades of case
law.
“The courts of this state, with notable consistency, have recognized that weapons
unconnected with either the accused or the offense for which he is standing trial lack any
probative value and their admission into evidence is inherently prejudicial and constitutes
reversible error.” State v. Perry, 689 S.W.2d 123, 125 (Mo. App. 1985). “[T]he sight of
deadly weapons or of cruel injuries tends to overwhelm reason and to associate the accused
with the atrocity without sufficient evidence.” Wynne, 182 S.W.2d at 289, quoting 4
Wigmore, Evidence § 1157 (1940) (reversing a second-degree murder conviction after
demonstration to the jury with a weapon unconnected to the crime). “Lethal weapons
completely unrelated to and unconnected with the criminal offense for which an accused
is standing trial have a ring of prejudice seldom attached to other demonstrative evidence,
and the appellate courts of this state have been quick to brand their admission into evidence
… as prejudicial error.” State v. Charles, 572 S.W.2d 193, 198 (Mo. App. 1978).
The only reason advanced by the State that evidence of more than 20 unrelated guns
and accessories is logically relevant is that the evidence goes to “prove he deliberately
chose the smallest weapon from his collection to facilitate his efforts to cover up the
murder” despite the fact other weapons were closer at hand. Slip. Op. at 11. But logical
relevance is not sufficient – the circuit court also must determine legal relevance by
weighing “the probative value of the evidence against its costs – unfair prejudice, confusion
of the issues, misleading the jury, undue delay, waste of time, or cumulativeness.” State v.
Anderson, 76 S.W.3d 275, 276 (Mo. banc 2002). The State could have made its point
3

simply by introducing evidence Mr. Wood owned numerous guns, he had to pass one or
more to get to the gun he used, and it was the smallest. The judge might have permitted
introduction of a picture of one or two of those guns. This would have balanced the
prejudice resulting from introduction of this only minimally probative but highly
prejudicial gun evidence.
Instead, the gun evidence became a centerpiece of the trial and went far beyond
what was necessary to present the facts deemed relevant. During the guilt phase, the State
presented evidence of the .22-caliber shell casing and rifle which appeared to be the
weapon used to kill Hailey. Then, over Mr. Wood’s objection, it also presented lengthy
testimony from F.B.I. Special Agent Tucker about more than 20 other guns and gun-related
accessories accompanying the guns. Agent Tucker testified Mr. Wood had a holstered
Ruger .44 pistol on his dining room table, a .45-caliber pistol on a nearby bookshelf, a .38caliber revolver on the bookshelf, a gun case with two semiautomatic handguns, a pump
action shotgun just inside his bedroom, a .40 Springfield semiautomatic in his bedroom, a
Smith and Wesson revolver in his storage room, a gun safe with 10 more guns in it, and a
pump action shotgun to the right of the gun safe.
For each of these guns, the jury was shown a photograph of the weapon as Agent
Tucker described the weapon. The State also asked Agent Tucker to describe finding
weapon accessories, including: a speed reloader, the gun cases, and a bookshelf with a box
of ammunition, and reloading supplies, which Agent Tucker described as a “reloading
station.” The State asked Agent Tucker to describe how a speed reloader worked, and why
a person may purchase one, and showed the jury photographs of all of these items.
4

In total, the jury viewed 29 photographs of different weapons and accessories. The
testimony by Agent Tucker accompanying the photographs stretches more than 20 pages
in the transcript and likely took more than an hour. The jury also was shown a large
diagram of Mr. Wood’s home, and saw Agent Tucker mark an “X” where each of these
weapons or accessories was located. At no time has it been argued any of these items
besides the .22-caliber rifle was the murder weapon.
Case law has long established that even “logically relevant evidence is excluded if
its costs outweigh its benefits.” Anderson, 76 S.W.3d at 276. State v. Holbert, 416 S.W.2d
129, 133 (Mo. 1967), rejected attempts to justify, in a trial for carrying a concealed weapon,
the admission of two other pistols found on or near the defendant to show the “intent” of
the defendant to carry a third pistol that was the basis of the charge. Given that intent to
conceal is generally found when the person was found concealing a weapon, the Court said
admission of an unrelated pistol found under a seat cushion “could have served no possible
purpose except prejudice.” Id.
Further, the principal opinion faults the prejudice analysis in this dissent for relying
on cases in which the gun is unrelated to either the defendant or the crime. But that is
incorrect. In Holbert, 416 S.W.2d at 130, this Court held the admission of a gun found in
the defendant’s shirt pocket and a gun found in the defendant’s car was in error, despite
the clear connection to the defendant and the scene of the crime, because those guns were
unconnected to the charge. In so holding, this Court wrote, “the dangerous tendency and
misleading probative force of this class of evidence require that its admission should be
subjected by the courts to rigid scrutiny.” Id. at 132. In State v. Krebs, 106 S.W.2d 428,
5

429 (Mo. 1937), this Court ruled evidence of two guns found on the defendant’s person
when he was arrested was admitted in error given that the State made no showing the guns
were used in the crime for which he was arrested . Accord Anderson, 76 S.W.3d at 276
(holding a glossy advertisement of semiautomatic weapons lacked legal relevance even
though the pamphlet was found in the defendant’s home and depicted the type of weapon
used in crime, because it caused unfair prejudice, although not reversible when a one-time
reference). This is because the question is legal relevance – when the prejudice created by
a gun or gun related item outweighs the probative value, then it is legally irrelevant even if
the evidence has some factual relationship to the case. Each case cited by this dissent is
cited for and reaffirms this proposition.
The imbalance decried in these cases is present here. It would have been within the
circuit court’s discretion to permit the introduction of evidence Mr. Wood passed up a
couple of guns located in or just outside the bedroom. But that some of the guns and gun
accessories were relevant simply means the circuit court was not required to exclude all
evidence of other guns. The circuit court then had a duty to weigh the probative value of
each additional piece of gun evidence against the inherently prejudicial nature of gun
evidence. From the record, it appears the circuit court skipped this step and simply
admitted evidence en masse after finding slight relevance without considering evidence as
to a particular gun or accessory to determine whether this additional evidence actually was
legally relevant, and how to limit its prejudicial impact. This was error. Holbert, 416
S.W.2d at 130 (holding that, when weapons unconnected to the crime were admitted, it was
“perfectly obvious that their use throughout the trial was prejudicial to the defendant”).
6

This holds true for the evidence of gun accessories such as reloaders as well. There
of course could be no suggestion that Mr. Wood could have killed Hailey with a gun
accessory, and it is undisputed he did not use a gun accessory to commit the murder. Yet
the prosecution did not merely mention Mr. Wood had these accessories; rather, it spent
considerable time describing them and their use. For example, although there was no
contention a reloader was used in the crime, the prosecution was permitted to introduce
photographs of the reloader, a diagram marking where it was found, and extensive witness
testimony, which included an explanation of how a speed reloader works, and possible
reasons a person might purchase one.
None of this highly prejudicial evidence of reloaders and other accessories is
relevant to whether Mr. Wood committed the murder, and the State offers no explanation
as to why this extended evidence about a speed reloader is needed to show deliberation
through Mr. Wood choosing one gun over another. Nor has it justified evidence of the
“reloading station” with boxes of ammunition, reloading supplies, and reloading
equipment. A much more likely explanation for the submission of this extensive evidence
is to establish a propensity for violence.
Nor is this error harmless. The extended testimony, combined with a diagram and
dozens of photographs, highlighted its prejudicial nature. “Admission of the shotgun into
evidence by virtue of its inherent prejudicial nature and lack of relevancy, coupled with the
state’s advert reference to it before the jury to obtain defendant’s conviction, dispel any
credence to the state’s argument that any error associated therewith was harmless ….”
Perry, 689 S.W.2d at 126. This is particularly true here, where despite the horrific facts
7

of the case, the jury was deadlocked as to punishment. But for this extensive prejudicial
evidence, the jury may have assessed the punishment at life imprisonment without parole.
For this reason, I would find the introduction of so many guns and gun accessories here is
prejudicial error and reverse.
II.

THE CIRCUIT COURT PLAINLY ERRED IN OVERRULING MR. WOOD’S
OBJECTION TO THE PROSECUTOR’S ARGUMENT IN THE PENALTY
PHASE THAT THE JURY SPOKE FOR HAILEY AND HER FAMILY
BECAUSE THE LAW SPECIFICALLY PROHIBITS FAMILY MEMBERS’
COMMENTS ABOUT PUNISHMENT AND THE PROSECUTOR EXCLUDED
EVIDENCE HAILEY’S MOTHER DID NOT WANT A DEATH SENTENCE
The principal opinion declines to find that the prosecutor’s comment in closing

argument that the jurors would “speak for [Hailey’s] family” by sentencing Wood to death
was plain error causing manifest injustice. Slip. Op. at 17-19. Whether this comment
would require reversal in another case, it manifestly should do so when, as here, it was the
prosecutor who successfully kept out evidence that Hailey’s mother did not in fact want
him to receive the death penalty. We have not only a comment by the prosecutor in
violation of the rules prohibiting telling the jury the family’s wishes as to punishment,
therefore, but we also have the prosecutor deliberately misrepresenting those wishes to the
jury. As discussed below, courts have often found prejudice when the prosecution requires
evidence to be excluded and then takes advantage of that exclusion to misrepresent the
evidence to the jury.
Pretrial, Mr. Wood sought to elicit testimony in the penalty phase of Hailey’s
family’s wish that he receive a sentence of life without parole. At the hearing, Hailey’s
mother testified that, if called in the penalty phase and asked what sentence she wanted
8

Mr. Wood to receive, she would say life without parole. Upon further questioning from
the court, she testified she wanted to avoid a trial and encourage Mr. Wood to plead guilty.
When asked, if the State insisted on a trial, “what would you like to see happen to Mr.
Wood as a result of him having killed your daughter?” the victim’s mother responded that
her answer would still be life without parole, even if the trial happened.
The circuit court correctly excluded the mother’s evidence, following the United
States Supreme Court’s opinion in Bosse v. Oklahoma, 137 S. Ct. 1, 2 (2016), and this
Court’s opinion in State v. Barnett, 103 S.W.3d 765, 772 (Mo. banc 2003), expressly
holding “[o]pinions of family members as to the appropriate punishment are irrelevant”
and “[t]he jury should not be put in the position of carrying out the victim’s wishes, whether
they are for or against the death penalty.” But, during closing argument, the prosecutor
then implied he knew the family wanted a death sentence when in arguing for the death
penalty he told the jury:
MR. PATTERSON: With your verdict, sentencing [Mr. Wood] to the ultimate
punishment, you speak for Hailey -MR. BERRIGAN: We’d object, Judge.
MR. PATTERSON: You speak for her family -At this point, defense counsel objected again, and argued the prosecutor’s argument
“improperly attributes the decision regarding life or death to Hailey Owens and her
family.” The circuit court overruled the objection. The prosecutor then returned to the
argument, stating Mr. Wood “not only brutalized Hailey, but he damaged her family, her
brother, her school, her entire community, and changed our community, and your verdict
will send a message to this defendant.”
9

The principal opinion erroneously concludes all of the statements from the
prosecutor in that exchange can properly fall under “send a message” testimony. Slip. Op.
at 18-19. This Court has indeed held it is permissible for the State to make statements
“amount[ing] to a call for action, requesting jurors to send a message of intolerance to the
community.” State v. Smith, 944 S.W.2d 901, 919 (Mo. banc 1997); accord State v.
McFadden, 391 S.W.3d 408, 425 (Mo. banc 2013) (explaining the State may argue “the
need for strong law enforcement, the prevalence of crime in the community, and that
conviction of the defendant is part of the jury’s duty to uphold the law and prevent crime”
[and] “the protection of the public rests with them” (internal quotations omitted)).
But while this precedent supports a finding no error resulted from the prosecutor’s
later “send a message” argument, the principal opinion fails to explain how this precedent
would permit the prosecutor’s preceding, clearly improper argument that, in deciding life
or death, the jury would “speak for Hailey” and “for her family.” This is more than a
statement calling on the jurors to think about their role in protecting the public or their duty
to the community. This is the State asking the jury to act on behalf of the family.
Contrary to the principal opinion’s suggestion that only direct testimony of a family
member is prohibited, such comments purporting to ask the jury to represent the family’s
wishes fall within the scope of comment the United States Supreme Court has held is
prejudicial and not to be permitted in Booth v. Maryland, 482 U.S. 496, 508 (1987). Booth
did not involve direct family testimony. Rather, it considered whether it was error for the
prosecutor to read aloud to the jury from a victim impact statement, prepared by the state
division of parole and probation, that contained reports of the family members’ opinions
10

about sentencing, including a statement from the victim’s daughter that “[s]he doesn’t feel
that the people who did this could ever be rehabilitated.” Id. The Supreme Court held “the
formal presentation of this information by the State can serve no other purpose than to
inflame the jury and divert it from deciding the case on the relevant evidence concerning
the crime and the defendant.” Id. Admission of the evidence required reversal.
While the Supreme Court has since held that victim impact testimony is permitted,
see Payne v. Tennessee, 501 U.S. 808, 827 (1991), it has reaffirmed the inadmissibility of
evidence of the wishes of the victim’s family as to punishment. Bosse, 137 S. Ct. at 3,
reversed the Oklahoma Court of Criminal Appeals’ conclusion that family views about
punishment were now admissible, specifically stating that, until it specifically overruled
that part of Booth, which it said it had not done, the Eighth Amendment creates a
“prohibition on characterizations and opinions from a victim’s family members about the
crime, the defendant, and the appropriate sentence.”
The principal opinion’s attempt to distinguish Booth and Bosse because the family
itself did not testify is no distinction at all. The family did not testify in Booth either, and
the plain language of Bosse shows the Supreme Court’s disapproval was not as to how the
family’s wishes came into evidence, but rather was the fact those wishes came into
evidence at all. Id. Indeed, as this Court stated in Barnett, the jury should not be told of
the family’s wishes, for “[t]he jury should not be put in the position of carrying out the
victims’ wishes, whether they are for or against the death penalty.” 103 S.W.3d at 772.
accord State v. Taylor, 944 S.W.2d 925, 938 (Mo. banc 1997) (explaining a victim’s family
members should never give an opinion about the appropriateness of a particular sentence).
11

Here, the jurors were told that, in deciding death, they would “speak for” the family. This
can only be understood as a comment about the family members’ wishes and opinions.
This directly violates governing Supreme Court law.
The principal opinion also contends that, because it was an isolated statement and
connected to other, permissible statements, Mr. Wood cannot show manifest injustice. But
the Supreme Court has made it clear telling the jury about the victim’s wishes is a serious
violation – even when the information is accurate. Missouri law agrees. It is well-settled
that a prosecutor commits error by “comment[ing] on or refer[ing] to evidence or testimony
that the court has excluded.” State v. Williams, 119 S.W.3d 674, 680 (Mo. App. 2003)
(alterations in original).
Equally telling, the information was not accurate. The prosecutor went beyond
simply commenting inappropriately about the family’s opinions. He deliberately distorted
the family’s opinions after taking action to ensure the family could not testify about their
opinions.
Missouri courts have repeatedly held it is manifest injustice requiring reversal for a
prosecutor to intentionally misrepresent evidence to the jury after seeking the exclusion of
that same evidence. Id. at 681; State v. Weiss, 24 S.W.3d 198, 204 (Mo. App. 2000). Here,
the prosecutor was self-evidently well aware that commenting about what the family
desires for punishment is not allowed, as he demonstrated in his successful argument to
exclude the evidence. To then turn around and deliberately argue something he not only
knows is not permissible, but that he also knows to be exactly the opposite of what the
mother would actually have said, is inexcusable behavior and is manifestly unjust. State
12

v. Hammonds, 651 S.W.2d 537, 539 (Mo. App. 1983). It requires reversal of the penalty
phase verdict.
III.

THE JURY DETERMINATION WHETHER THERE IS EVIDENCE IN
MITIGATION
SUFFICIENT
TO
OUTWEIGH
EVIDENCE
IN
AGGRAVATION IS A FACTUAL FINDING
In section 565.030.4, 1 the legislature set out four requirements for a jury assessing

and declaring punishment in a death case, as follows:
The trier shall assess and declare the punishment at life imprisonment
without eligibility for probation, parole, or release except by act of the
governor:
(1) If the trier finds by a preponderance of the evidence that the
defendant is intellectually disabled; or
(2) If the trier does not find beyond a reasonable doubt at least one of
the statutory aggravating circumstances set out in subsection 2 of section
565.032; or
(3) If the trier concludes that there is evidence in mitigation of
punishment, including but not limited to evidence supporting the statutory
mitigating circumstances listed in subsection 3 of section 565.032, which is
sufficient to outweigh the evidence in aggravation of punishment found by
the trier; or
(4) If the trier decides under all of the circumstances not to assess and
declare the punishment at death. If the trier is a jury it shall be so instructed.
Rather than setting out what the jury must find to impose a death sentence, the
statute directs the jury it must first make a factual determination whether a defendant is
intellectually disabled. If so, the jury is required to impose a life sentence. Second, the
jury is told it must determine whether at least one statutory aggravator was proved. If not,

1

All statutory references are to RSMo 2000.
13

it must impose a life sentence. Third, the jury is told it must make a determination whether
“there is evidence in mitigation of punishment” which outweighs “the evidence in
aggravation of punishment.” Id. If so, again, it must impose a life sentence. Only when
the jury has made these findings does it “decide[] under all the circumstances” whether to
exercise discretion to impose life in prison as a matter of mercy.
I do not disagree with the majority opinion that, in this case, the record shows the
jury made the factual findings required by section 565.030.4(1), (2), and (3) and
deadlocked only on the question in section 565.030.4(4) whether they should exercise their
discretion to impose a sentence of life. This distinguishes this case from State v. Whitfield,
107 S.W.3d 253, 261 (Mo. banc 2003), in which, because no jury interrogatories were used,
this Court was unable to determine whether the jury made the necessary findings under the
balancing question. The record revealed only that the jurors were split on punishment, but
not at what point the jurors became split. Id. The death sentence imposed was “entirely
based on the judge’s findings that all four steps favored imposition of the death penalty.”
Id. at 262-63. Because of this, Whitfield specifically required affirmative, unanimous, jury
findings on the questions then required by Missouri law, including that there was a statutory
aggravator and that mitigation did not outweigh aggravation. Id. at 264.
The kind of unanimous jury findings required by Whitfield were returned by the jury
here.

The jury did not find Mr. Wood intellectually disabled, did find a statutory

aggravator, and did not find that the evidence in mitigation outweighed that in aggravation.
Had the jury found otherwise on any of these questions, section 565.030.4 would have
capped Mr. Wood’s sentence at life. On (4), however, the jury deadlocked as to whether
14

to grant mercy despite its failure to find grounds for limiting the available sanction to life
in (1), (2) and (3). The trial judge was tasked under the statute, therefore, to make that
ultimate decision. I agree this last question asks the jurors and then the judge to look into
their hearts and determine whether to exercise mercy.
The principal opinion errs, however, in conflating this last question of mercy with
the third question, in which the jury is asked to balance mitigating and aggravating
evidence and decide whether the former outweighs the latter. The principal opinion appears
to believe, because the jury already determined there is a statutory aggravator, death is on
the table and the third question, therefore, is just an extra opportunity for mercy by the jury.
But question order cannot turn a requirement for imposition of a death sentence into a
superfluity.
Imagine, for instance, that the instruction reversed the order of the questions (the
statute itself prescribes no particular order), and first asked the jury to decide whether there
is evidence in mitigation outweighing the evidence in aggravation, and only later asked
whether the jury had found a statutory aggravator. Would that make the statutory
aggravator question simply one that goes to mercy, one not required for imposition of the
death penalty? Of course not. The finding of such an aggravator is required both by the
United States Supreme Court under the United States Constitution, and by section
565.030.4(2). It is a factual question that must be answered to impose death.

15

The same is true when, as here, the instructions have been written to ask the statutory
aggravator and intellectual disability questions first, and then the balancing question. 2
Word order does not define importance, for all three questions must be answered in order
for either judge or jury to impose a sentence of death. It is only the fourth requirement, at
which the jury has made its factual determinations and is tasked with deciding whether,
nonetheless, to impose a life sentence, that the judge is permitted to decide on the sentence
if the jury deadlocks.
The principal opinion also seems to suggest the third question is not one of fact
because it requires the jury to balance the evidence and this somehow is akin to being asked
whether to grant mercy. If this were correct, it would make the fourth requirement
redundant and superfluous. It is not correct, however. The principal opinion’s approach
ignores that jurors are asked to balance the evidence in making factual determinations every
day.
Indeed, the first two questions in section 565.030.4 also require the jury to balance
the evidence – to weigh the evidence of whether defendant is intellectually disabled and
whether the evidence shows a statutory aggravator. The only difference in (3) is that the

2

The principal opinion notes that, under current Supreme Court jurisprudence, finding a
statutory aggravator is present is all that is required by the Sixth Amendment. See Kansas
v. Marsh, 548 U.S. 163, 175 (2006), quoting, Franklin v. Lynaugh, 487 U.S. 164, 179
(1988) (holding a statutory scheme must allow for the narrowing of death-eligible offenses
and for the fact finder to consider mitigating evidence, but “a specific method for balancing
mitigating and aggravating factors in a capital sentencing proceeding” is not required
(internal quotations omitted)). My argument is not with the principal opinion’s Eighth
Amendment analysis but with its statutory interpretation. While the constitution may not
require that the jury balance this evidence, section 565.030.4 does so require.
16

statute explicitly tells the jury what evidence it is to consider – the mitigating and
aggravating evidence. To do so, the jury must make the same kinds of credibility
determinations and weighing and drawing of inferences from the evidence as it does in
answering the first two questions.
Such balancing and weighing of evidence to reach a verdict has historically been
the province of the jury. “The credibility and weight of testimony are for the fact-finder
to determine.” State v. Crawford, 68 S.W.3d 406, 408 (Mo. banc 2002) (emphasis added).
It is the jury’s task to “determine the credibility of the witnesses, resolve conflicts in
testimony, or weigh the evidence.” Fowler v. Daniel, 622 S.W.2d 232, 236 (Mo. App.
1981) (emphasis added). On appellate review, “this Court will not weigh the evidence
anew since the fact-finder may believe all, some, or none of the testimony of a witness
when considered with the facts, circumstances and other testimony in the case.” State v.
Freeman, 269 S.W.3d 422, 425 (Mo. banc 2008) (internal quotations omitted) (emphasis
added). In fact, this Court’s standard of review often requires a determination whether the
evidence on one side so outweighed that on the other that the jury verdict is “against the
weight of the evidence.” This necessarily recognizes the jury must weigh the evidence to
reach its verdict, as it “denotes an appellate test of how much persuasive value evidence
has, not just whether sufficient evidence exists that tends to prove a necessary fact.” Ivie
v. Smith, 439 S.W.3d 189, 206 (Mo. banc 2014) (internal quotations omitted); White v. Dir.
of Revenue, 321 S.W.3d 298, 309 (Mo. banc 2010).
Because the third question requires a factual finding by the jury, as Whitfield held,
it cannot be found by the judge if the jury had deadlocked on the third, not the fourth,
17

question. It is the jurors who must balance the evidence and make the factual determination
whether evidence in mitigation outweighs that in aggravation. I believe the interrogatories
make it clear the jury here did make such a factual determination that mitigators did not
outweigh aggravators.

To the extent the principal opinion states such a factual

determination is not required, it is incorrect and the cases on which it relies should be
overruled on that point. 3 Failure of the jury to make any of the three findings required
under subdivisions (1) through (3) of section 565.030.4 precludes imposition of a death
sentence because a jury must find every fact necessary for imposition of a death sentence.
IV.

CONCLUSION
For the reasons stated above, I dissent.
_______________________________
LAURA DENVIR STITH, JUDGE

The principal opinion cites to statements in State v. Dorsey, 318 S.W.3d 648, 653 (Mo.
banc 2010), State v. Anderson, 306 S.W.3d 529, 540 (Mo. banc 2010), and Zink v. State,
278 S.W.3d 170 (Mo. banc 2009), to support its position.

3

18

APPENDIX B

CLERK OF THE SUPREME COURT
BETSY AUBUCHON
CLERK

STATE OF MISSOURI
POST OFFICE BOX 150
JEFFERSON CITY, MISSOURI

65102

TELEPHONE
(573) 751-4144

September 3, 2019
Ms. Rosemay Percival
Suite 500
920 Main Street
Kansas City, MO 64105

via e-filing system

In Re: State of Missouri, Respondent, vs. Craig Michael Wood, Appellant.
Missouri Supreme Court No. SC96924
Dear Ms. Percival:
Please be advised the Court issued the following order on this date in the above-entitled cause:
“Appellant’s motion for rehearing overruled.”
Very truly yours,

BETSY AUBUCHON
cc:
Mr. Daniel McPherson

via e-filing system

APPENDIX C

SUPREME COURT OF MISSOURI
APPELLANT'S TRANSCRIPT ON APPEAL
NO. SC96924

* * * * * *
STATE OF MISSOURI,
Plaintiff-Respondent,
vs.
CRAIG MICHAEL WOOD,
Defendant-Appellant.

In the Circuit Court
of Greene County,
Missouri
Case No.
1431-CR00658-01

* * * * *
JURY TRIAL
BEFORE THE HONORABLE THOMAS E. MOUNTJOY,
Judge of Division IV
Thirty-first Judicial Circuit

* * * * *
VOLUME 21 OF 21

* * * * *
APPEARANCES
ATTORNEYS FOR THE STATE:
MR. J. DANIEL PATTERSON
Greene County Prosecuting Attorney
MR. T. TODD MYERS
Chief Assistant Prosecuting Attorney
MS. ELIZABETH KIESEWETTER FAX
Assistant Prosecuting Attorney
Greene County Judicial Facility
1010 North Boonville Avenue
Springfield, MO 65802
ATTORNEYS FOR THE DEFENDANT AT TRIAL:
MR. PATRICK J. BERRIGAN
MR. THOMAS JACQUINOT
MR. THOMAS JEFFERSON STEPHENS, IV
Missouri State Public Defenders
Capital Litigation Division, Western District
920 Main Street, Suite 500
Kansas City, MO 64105

FOR THE DEFENDANT ON APPEAL:
MS. ROSEMARY E. PERCIVAL
Missouri State Public Defender
Capital Litigation Division, Western District
920 Main Street, Suite 500
Kansas City, MO 64105
Reporter:

Connie McKeen, CCR(333), CSR

i

(Counsel approached the bench, and

1
2

discussion was held off the record.)

3

PROCEEDINGS RETURNED TO OPEN COURT
THE COURT: The verdict is in proper

4

1

waive the Sentencing Assessment Report in these

2

circumstances.
THE COURT: All right. I'll show that

3
4

waived. And, again, if the motion for new trial

5

form. The Court accepts the same and does show

5

is denied, we'll proceed to sentencing on that

6

it as filed.

6

date.

7

Ladies and gentlemen, this will complete your

7

Anything else today, then?

8

verdict -- or your service in this case. And I

8

MR. PATTERSON: No, sir.

9

want to start out by telling you at this time

9

MR. BERRIGAN: Nothing by the Defense.

10

what I told you in the very beginning, and for

10

11

some of you that was two weeks ago, how much we

11

12

appreciate your service in this case.

12

13

You indeed answered a call of duty in regard

14

15

terms of being away from your families and being

15

16

out of your employment and place where you live.

16

17

And we've worked hard in the case and appreciate

17

18

all your patience and understanding in that

18

19

regard.

19

20

21

You'll be discharged at this time. And

(Court stood in adjournment.)

*****

13

to a civic obligation, and you made sacrifices in

14

THE COURT: All right. We're adjourned,
then.

20

you'll be released also from the Court's

21

22

instructions about not talking with others about

22

23

the case, but that is always your personal

23

24

decision in terms of how you handle that. But

24

25

you are discharged with the thanks of the Court.

25

4113
(The jury was excused from the courtroom

1
2

at 4:39 p.m.)
THE COURT: Ladies and gentlemen, we're

3

4115
1

STATE OF MISSOURI vs. CRAIG MICHAEL WOOD

2

CASE NO. 1431-CR00658-01

3

THURSDAY, JANUARY 11, 2018

4

going to take a short recess while we determine

4

5

the timing on matters going forward here, so

5

6

we'll be in recess for a few moments.

MOTION FOR NEW TRIAL & SENTENCING

*****

6

(Court in session at 2:36 p.m.)

7

(Break in proceedings.)

7

THE COURT: This is Case Number

8

THE COURT: We're back on the record.

8

9

10

The jury, of course, has been discharged at this
point.

9

1431-CR00658-01, State of Missouri vs. Craig
Michael Wood. The State appears by Prosecuting

10

Attorney Dan Patterson, Chief Assistant

11

First order of business will be to set a

11

Prosecuting Attorney Todd Myers, Assistant

12

date, a due date, for the motion for new trial.

12

Prosecuting Attorney Elizabeth Kiesewetter Fax.

13

I'm assuming, Mr. Berrigan, you want the

13

Mr. Wood appears in person and with his attorneys

14

extension that's allowed?

14

Patrick Berrigan and Thomas Jacquinot.

15
16
17

MR. BERRIGAN: Yes, sir, please.

15

THE COURT: That will make the motion

The matter comes before the Court today in

16

regard to motions, first of all. As a

for new trial due on December the 1st. It's a

17

preliminary matter, the Court would note that

18

there is media present in the courtroom that are

18

Friday. I will set a hearing date on the motion

19

for new trial for January 11th at 2:30 p.m. In

19

seeking to visually and by audio, as well, record

20

the event the motion for new trial is overruled,

20

the proceedings.

21

we'll proceed to sentencing that day, as well.

21

22
23

24
25

Does your client desire to have a Sentencing
Assessment Report?
MR. BERRIGAN: No, Your Honor. We
specifically request that we be permitted to
4114

The Court announced back in actually a ruling

22

in October of 2015, granting media coverage for

23

future hearings from that date, subject to

24

objection by parties. I haven't received any

25

objections for today, but I think the record
4116

1 ought to include an opportunity if there is an
2 objection.
MR. BERRIGAN: I think the basis of our
3
4 previous objections, Your Honor, have always been
5 the effect on the proceedings for potential
6 jurors and, of course, during the trial on
7 witnesses and again on jurors. None of those
8 reasons are relevant now; so, we do not have
9 objections today, other than general animosity
10 towards the press and the media, none of which
11 has any legal basis. So our previous objection
12 would not apply here.
THE COURT: All right, thank you.
13
Anything from the State at all?
14
MR. PATTERSON: No, sir.
15
THE COURT: All right. Well, then the
16
17 media is allowed to be present via pool
18 videocamera and a pool still camera and record
19 the proceeding, subject to Administrative Rule 16
20 and the provisions, which would, importantly,
21 include not capturing any audio from counsel
22 tables or any documents or exhibits on counsel
23 tables.
24
Just as a preamble for the record, to bring
25 us to where we are today, the record in this case
4117
1 reflects that the jury trial began in this case
2 on October the 23rd, 2017, with jury selection in
3 Platte County, Missouri. A jury was selected to
4 hear the case. The trial actually commenced on
5 October 30th, 2017, in Greene County.
After trial that week, on November the 2nd,
6
7 2017, after deliberation, the jury returned a
8 verdict finding Mr. Wood guilty of murder in the
9 first degree. On November 6, 2017, the jury
10 deliberated as to the sentence and reached a
11 verdict indicating they were unable to decide or
12 agree upon the punishment.
13
The Court did accept those verdicts, granted
14 Defense counsel the time allowed for filing for a
15 motion for new trial. That motion was timely
16 filed on December 1, 2017, and it is styled as a
17 motion for judgment of acquittal notwithstanding
18 the verdict or, in the alternative, for a new
19 trial. The hearing on that motion was set for
20 this date and time.
21
Now, prior to the filing of the motion for
22 new trial was actually another motion filed by
23 Defense, and that was on November 30th, 2017, a
24 motion for trial Court imposition of sentence of
25 life without parole.
4118

1
2

And then on January 9, 2018, the State filed
suggestions in opposition to Defendant's motion
3 for trial Court imposition of a sentence of life
4 without parole.
Those latter motions I would plan to take up
5
6 after we deal with the motion for new trial that
7 you've filed, since that is a sentencing issue.
So let me hear the Defense, then, at this
8
9 point on the issue of your motion for judgment of
10 acquittal or, in the alternative, a new trial.
MR. BERRIGAN: May it please the Court.
11
THE COURT: Mr. Berrigan.
12
MR. BERRIGAN: Your Honor, I know this
13
14 motion's been on file now for well over a month.
15 The Court's undoubtedly read it. I'm not going
16 to go through each of the more than two dozen
17 points that are raised in the motion, but I will
18 highlight some areas that we think are
19 particularly egregious and our conclusion that
20 Mr. Wood was deprived of a fair trial.
21
By not mentioning some of the others, for the
22 benefit of Appellate Courts at least, let there
23 be no suggestion that we waive any arguments not
24 made or that we think the other points are less
25 worthy than those that will be a discussed today.
4119
1
2
3

4
5
6
7

8

9
10

11

12
13
14
15
16
17
18
19
20
21
22
23
24
25

There was several pages devoted, I think at
least eight, to errors we believe were conducted
during the course of the voir dire, but none was
more egregious than, we believe, the strike of
Juror No. 114, Ms. Lanning, because she was
qualified, albeit somewhat death-scrupled juror.
But I do think that's sufficiently covered in the
motion, and I'm going to leave it at that.
There were three errors during the course of
the first phase of the trial that we believe
deprived Mr. Wood not only of a fair opportunity
for results in the first phase, but carried over
to affect the deliberations on sentencing in the
penalty phase.
The first of those was the Court overruling a
motion in limine and subsequent objections at
trial to the admission of 18 different guns that
were found in Mr. Wood's home, as a result of
searches by the FBI and Springfield Police
Department, when only one gun, a .22-caliber
rifle, was the actual murder weapon, all on the
premise argued by the State that this evidence of
17 additional unrelated guns went to the issue of
reflection or deliberation, their theory being
that the .22 gun -- without any scientific
4120

1
2
3
4
5
6
7
8
9
10

11

12
13
14
15
16
17
18
19
20
21
22
23
24
25

testing, that the .22 had less noise created when
it was discharged.
The Defense argued then, we argue now. I'm
hoping, given the passage of time and the Court's
ability to more cooly reflect itself without
being in the heat of battle of the trial, that
that reasoning was suspect at best. There are a
lot of different ways that a poor ten-year-old
child could have been killed, not the least of
which strangling, stabbing, beating, etc., none
of which would have created even the noise of a
.22 rifle. So this theory is suspect on that
reason alone.
But it's also suspect because there was ample
evidence of deliberation. The very shot that
killed this little girl was to the back of the
head, at the base of the skull. There was no
need for the State to bring in 17 guns and all
the ammunition and all of the associated evidence
with these 17 guns, to prove deliberation. So
the prejudicial effect of that evidence was far,
far outweighed by whatever minimal, if any, value
that that had to prove deliberation.
The phone photographs are a similar nature.
There were 32 photographs on Hailey Owens' phone
4121

that were recovered forensically. And although
arguably none of these things had anything to do
with her abduction and subsequent murder, the
Court allowed every one of the photographs in.
The State argued that, well, there were some
photographs that showed she was wearing the same
kind of clothes that were later recovered.
That's fair. There were photographs that showed
she didn't have injuries in locations where
10 injuries were later discovered. That's fair. We
11 could have used maybe one or two, even three or
12 four, of the photographs for the purpose.
But instead, the Court allowed in photographs
13
14 of dogs, photographs of other relatives, at least
15 a dozen selfies. By the time this trial was
16 over, there were more than three dozen, at least,
17 photographs of Hailey Owens, many taken by
18 herself, which had no relevance.
19
All they did was to allow the State to put in
20 victim impact evidence in the first part of the
21 trial, when that evidence is confined
22 appropriately to the second part of the trial.
23 So that's the second error I thought that had a
24 particularly egregious prejudicial effect.
The third thing was, which we litigated at
25
4122

1
2
3
4
5
6
7
8
9

1
2
3
4
5
6
7
8
9
10
11

12
13
14
15
16
17
18
19
20
21
22
23
24
25
1
2
3
4
5
6
7
8
9
10

11

12
13
14
15
16
17
18
19
20
21
22
23
24
25

some length, and I'm not going to go back all
through it now, was the admission of the purple
folder, the fantasy stories, and the four
photographs of unrelated teenagers, had nothing
to do with the case.
The State's argument was that this again
showed motive, despite the fact that neither of
the fantasy stories involved girls who were
kidnapped or abducted. But I think the record,
certainly the written record and the argument at
trial, should be sufficient, and I know the Court
remembers those things .
I mention this because this evidence, amongst
all the evidence in the first phase of the trial,
these stories particularly most prejudiced
Mr. Wood, neither of which had anything to do
with the murder of Hailey Owens, in our view.
That's why the State went to extraordinary
lengths to give each of the jurors a copy, and we
could see the visceral reaction of jurors, which
I hope we documented during the trial, while they
were reading these stories to themselves. That
evidence was devastating. Again, it obviously
carried into the penalty phase. And maybe it
might have been admissible in the penalty phase
4123
but certainly not in the first phase of the
trial.
In the penalty phase, I'll mention three
issues as well, two of which involve the
admission of evidence that never should have been
admitted. Ten thousand Springfield citizens
showing up at a candlelight vigil for Hailey
Owens four days after her death is admirable;
it's a terrific reflection of the concern of this
community for her and her family, but it has zero
to do with the trial and the penalty that Craig
Wood should receive for these crimes. None.
I've never seen such evidence in thirty years
of practicing in death penalty cases, and I
haven't seen any cases in my research that would
support its admission. All it did was to show
unambiguously to out-of-town jurors, that might
not know how the community of Springfield felt -not only were they supportive of the family but
that, given it was presented in the penalty phase
for death, that that was the sentiment of the
community.
That was only buttressed by the testimony of
Pastor Findley, who talked about how the city of
Springfield has changed as a result of this
4124

1
2
3
4
5
6
7
8
9
10
11

12
13
14
15
16
17
18
19
20
21
22
23
24
25
1
2
3
4
5
6
7
8
9
10

11

12
13
14
15
16
17
18
19
20
21
22
23
24
25

murder, that people are more defensive, more
cautious, that it's more like a big city than it
had been previously. Now the jurors get this
testimony that this case changed an entire city,
none of which should have been admissible in this
trial at any point for any reason, and yet that
testimony came in, over strenuous objection by
the Defense.
It added to the atmosphere that was already
present as a result of what I call our second
complaint, which was the funeral in the courtroom
that took place, even though we had warned the
Court repeatedly that this type of evidence is
not admissible under Payne.
The first two witnesses that testified for
the State -- Savannah Taylor, Tara Tharp -- were
openly crying throughout their testimony. They
did that in a courtroom that had at least two or
three rows of victim's family members who were
also crying, which caused the jurors to start
crying, which we -- even the Court acknowledged
on the record during the course of the trial. We
had four jurors openly crying during this
testimony.
When the Defense asked for a recess, we were

4125

denied, the Court leaving that decision to the
witness herself, despite our protestations that
this was not only prejudicial but far beyond the
boundaries in Payne. There was a funeral in the
courtroom during this trial.
It took place three and a half years after
this little girl's death, but it had just as much
emotion, I suspect, as the first one, all to the
detriment of Mr. Wood and certainly in
contravention of the Supreme Court's decision in
Payne v. Tennessee. I think that evidence
undoubtedly affected the sentencing determination
here.
This happens while, at the same time, the
Court denies the Defense evidence to show that
Craig Wood actively supported and encouraged his
parents' efforts to help Stacey Barfield, now
Stacey Herman, in her efforts to get a law passed
called Hailey's Law. The Court recalled we
presented testimony; we made an offer of proof on
that. Mr. Wood talked about how he and his wife
made several trips to Jefferson City.
They had discussed this issue with their son
to see if he was supportive of such an idea. Our
argument was that this showed contrition; this

4126

1
2
3
4
5
6
7
8
9

showed acknowledgment of responsibility; that
this showed a desire to make amends, all of which
should have been admitted as mitigation evidence
under Tennard, which Mr. Jacquinot quoted for the
Court. It's a very simple proposition. If the
factfinder could deem it to be mitigating, it is
mitigating, and yet that evidence was not
allowed, while we hear victim's family members
openly crying in the courtroom.
Our view is that these errors not only in the
10
11 aggregate, but certainly in the aggregate,
12 individually deprived Mr. Wood of a fair trial in
13 both phases, frankly, and we ask the Court to
14 grant him a new trial accordingly.
15
THE COURT: Thank you.
16
State's reply.
17
MR. PATTERSON: Just briefly, Your
18 Honor. With regard to voir dire, Ms. Lanning in
19 particular, the Court was very careful to listen
20 to the answers of the witnesses and their
21 equivocation and to note their demeanor and made
22 a record of all of those things in granting the
23 State's strikes, including that of Ms. Lanning,
24 and I'll rely upon that record.
25
With regard to the gun evidence in the first

4127

1
2
3
4
5
6
7
8
9
10

11

12
13

14
15
16
17
18
19
20
21
22

23
24
25

phase, our theory about deliberation is a valid
theory, and you saw it when you saw how the guns
were positioned, how easily they would have been
to use a higher caliber weapon, yet he chose the
weapon that would not make as much noise or draw
as much attention to the crime he was committing.
And the Defense characterizations of why the
State introduced this evidence, there was no
argument of any kind regarding the things that
they alleged, that we tried to paint him as
militaristic or dangerous or unstable because he
possessed guns. There was no argument or
implication of that whatsoever in any of the
evidence.
With regard to pictures from Hailey's phone,
they did, as Mr. Berrigan says, establish her
lack of injuries. That was used with the Medical
Examiner's testimony, as well as what she was
wearing at the time of the abduction, as well as
her location.
Both the timeline and location evidence from
the phone went together because it shows she
would have been walking down the very street that
he's driving up and down prior to his abduction
of her. And then, eerily, she also had that one

4128

photo of the location where her phone is
2 ultimately tossed by the defendant after she's
3 taken. But that series of photos also shows that
4 she took photos after she left that location. So
5 she didn't just drop it there or leave it there.
6
We've litigated the purple folder by motion
7 both in the Associate Circuit Court and here, so
8 I'll rely on the record. I believe that evidence
9 was relevant and admissible with regard to motive
10 and intent and not unduly prejudicial.
11
With regard to the victim impact evidence, I
12 believe that was within the constraints of Payne.
13 Payne talks in terms of the importance of the
14 jury being able to understand the specific harm
15 the defendant caused, when they're also hearing
16 evidence in mitigation, so that they know what
17 harm was caused. I believe our evidence went to
18 that, the harm caused to those who knew Hailey
19 and to our community.
20
In Storey, State v. Storey, 40 S.W.3d 898, in
21 that case there were a number of exhibits
22 properly admitted. The photographs of the victim
23 with her class, a balloon release, a memorial
24 garden illustrating her value to the community
25 and impact of her death upon her friends and
1

4129

1
2
3

4
5

6
7
8
9
10

11

12
13
14

15

16
17

18

19
20

21
22
23

24
25

during the trial the Court made rulings. I have
no inclination to change any of those rulings;
so, the Defendant's motion for judgment of
acquittal notwithstanding the verdict or, in the
alternative, for new trial is denied.
The Court announced when the hearing for the
motion for new trial was set that if the motion
was denied, the Court intended to proceed to
sentencing on the same date, which is today. In
that regard, Mr. Wood waived his right to a
Sentencing Assessment Report.
I think this would be the appropriate time to
take up the other Defense motion, which in
essence, as I take the motion, challenges on
legal basis the ability of the Court to at this
time do anything other than impose a life
sentence without parole. That is the motion for
trial Court imposition of a sentence of life
without parole.
Mr. Jacquinot, are you going to address that,
sir?
MR. JACQUINOT: I am, Your Honor.
THE COURT: You may do so.
MR. JACQUINOT: Just for the record, the
motion was filed on the date the Court noted. We

1

4131
1 just received the State's response less than 48

2

2

coworkers, helping the jury to see the victim as
something other than a faceless stranger. The
3 evidence in our case is very similar to the
4 evidence in Storeyand, again, demonstrated the
5 specific harm caused by the defendant in this
6 case.
7
With regard to the mitigation evidence of the
8 defendant, that evidence would have been relevant
9 if Jim Wood were on trial. Those were not
10 efforts -- they didn't have anything to do with
11 the character of Craig Wood. You heard the
12 proffer that was made and considered that
13 evidence. It simply was not relevant to the
14 character of Craig Wood or this crime, and I
15 believe you properly excluded it.
16
THE COURT: Thank you.
17
Your motion, Mr. Berrigan. Anything you want
18 to -19
MR. BERRIGAN: Nothing further, Judge.
20
THE COURT: All right. I did have
21 occasion to read very carefully through the
22 Defendant's motion and reflected upon the
23 evidence at trial and the rulings at trial.
24
I think everything that's raised there was
25 well argued, and a record was made at the time

4130

3

4
5

6
7
8
9
10

11

12
13
14

15

16
17

18

19
20

21
22
23

24
25

hours ago, so much of what I need to say really
sort of incorporates the State's response. It's
a fairly complicated legal motion.
The State is asking you to do something that
in any other jurisdiction in the United States
right now you would not be able to do, or at
least judges are not actively doing. I'll touch
on that. Because of sort of the breadth of the
motion, I'll just give the Court a brief roadmap.
I may not touch on all of these points in detail,
but I'll just list them sort of in order here.
One of them is just sort of -- the State's
response to our motion focuses mostly on a sort
of a side-by-side comparison of the Missouri
statute to the Florida statute, which was
invalidated in the Hurstcase in 2016. That
needs to be put in an appropriate context because
that really completely sort of misstates the
legal background that underlies this claim.
Again, as I noticed another point here is
that, you know, Missouri could be referred to as
an outlier in regard to judge sentencing in the
event of a jury deadlock, but the reality is it's
beyond that. Missouri stands on an island; it

4132

1
2
3
4
5
6
7
8
9
10
11

12
13

14
15
16
17
18

19
20
21
22
23
24
25
1
2
3
4
5
6
7
8
9
10
11

12
13

14
15
16
17
18
19
20
21
22
23
24
25

stands there alone. The public needs to know
that. The Court needs to know that. One of the
concepts that was referred to in the State's
motion is: Did Hurst expand Ring v. Arizona that
was decided in 2002? We'll touch on that.
The other thing is the reality of a
judge-imposed death sentence under the
circumstances we now face is that it does involve
a substantial factfinding component. Anything -any assertion to the contrary would be completely
inaccurate. There is a misplaced reliance in the
State's motion on the cases of Zink, Glass, and
Gill. They do not -- they don't apply here.
There is one miscategorization of the jury's
findings in this case at the beginning of the
motion, although they do correct that at the end.
And then there's this notion that the Steele v.
Mclaughlin case is an outlier, that it's the
State's motion -- and, of eourse, under Steele,
if that were a precedent, the Court -- we
wouldn't be having this discussion. It would be
automatic; the Court would have no authority to
impose death under these circumstances.
The State's motion sort of mirrors the
Attorney General's response in the Rice case,
4133
that this case will somehow go away. That at
least needs to be touched on, and then there's
one other brief renewal at the end.
So when you look at Hurst-- and I know that
that is decided -- it's quoted by both parties,
and the Court's read the motions. The State's
response is, well, wow, that statute is much
different than Missouri's. Well, the truth is
Florida has one statute, and Missouri, for
purposes of analysis, really has two statutes.
So what does that mean?
In about 75 percent of the capital cases that
I've had go to a jury, the jury made the
sentencing assessment. And under that model or
that aspect of Missouri statute, it is much
different than Florida, because in every case
I've had, whether it was life or death, once the
jury made the assessment, the Court's imposition
was basically a formality. The jury had, for all
practical purposes, issued the sentence.
That's not what we're dealing with here,
though. We're dealing with a jury deadlock
situation. The jury has not assessed a sentence.
So the Court's function is expanded, and it's
only in that context that we can compare and
4134

1
2
3
4
5
6
7
8
9
10
11

12
13

14
15
16
17
18
19
20
21
22
23
24
25
1
2
3
4
5
6
7
8
9
10
11

12
13
14
15
16
17
18
19
20
21
22
23
24
25

discuss the two statutes, because the Court now
necessarily will both make the assessment
component of the sentencing process as well as
the final imposition. So it's much different.
To talk about Missouri having a
non-judge-centric statute in a case where a jury
makes a sentencing assessment is one thing, but
to say that we can somehow sort of transpose that
type of analysis on a situation where the jury is
deadlocked, it's simply wrong.
So what did Hurstdecide? Did Hurst expand
Ring? No, Hurstdid not necessarily expand Ring,
but what they did in an eight-to-one decision,
when you tally up all the votes, is that they,
without any equivocation whatsoever, repeated a
blanket prohibition upon judicial factfinding in
the capital sentencing process.
So when we look at what happened in that case
and-s1:>eeifically focus onone oHhe arguments
that was made by the Florida Attorney General's
Office, what we see here is basically their
argument completely mirrored what the Missouri
Supreme Court said in Mclaughlin, and to
understand what that means is we have to sort of
go back to Ring and how the Missouri Supreme
4135
Court responded to Ring.
Following Ring, the statute that you now have
it's invalid. I mean, on its face, it is invalid
in this context where the jury deadlocks, because
what that statute tells you to do is to go back
and start all over. It literally says that, and
the Missouri Supreme Court acknowledged as early
as the Whitfield decision. that that was wrong,
and it started on this process where it would
somehow -- the best way I can describe it is
authorize a system that would create sort of
harmless error in perpetuity unless the Missouri
Legislature cleaned up the statute post Ring. We
know the cleanup has never happened; so, we're
here.
When we look at Hurst v. Rorida, we did not
have a jury deadlock or jury nondecision. The
jury considered all of the -- all of the evidence
and punishment; the aggravating evidence, the
mitigating evidence. The jury in Hurst v.
Rorida actually recommended a death sentence
based upon its own factual analysis and the
hearing of the evidence.
When the Florida case went to the United
States Supreme Court, Florida, you know, Attorney
4136

1
2
3
4
5
6
7
8
9
10

11

12
13

14
15
16
17
18
19
20
21
22
23
24
25
1
2
3
4
5
6
7
8
9
10

11

12
13
14
15
16
17
18
19
20
21
22
23
24
25

General's Office said, well, how -- how can that
judge be playing an independent factfinding role
when, in reality, all he is doing is simply
following a recommendation that the jury had made
after considering all the facts? It was not a
jury deadlock. It was not a jury nondecision.
And the answer of the United States Supreme
Court was basically jury factfinding is jury
factfinding, and an overwhelming majority of the
Supreme Court said that's just -- that can't
happen, and they sent it back, and we know what
happened after that. Florida basically got rid
of that sentencing scheme.
The State cites Zink, Glass, and Gill, and
the proposition that they cite it in is that
although the Missouri Supreme Court, when it
decided Whitfield said that the weighing process
regarding mitigating and aggravating evidence is,
per Ring, a factual process. Itsuggested
somehow to the Missouri Supreme Court that that's
no longer the doctrine, that these cases somehow
overruled it.
Well, one, that didn't happen. Two, I think
the best context for that is -- and those all
eventually became my cases at final disposition.
4137
But every time those cases were tried, there was
a jury assessment. Travis Glass, the jury
assessed death; the Judge assessed -- the Judge
imposed death. David Zink, same thing. Mark
Gill, first trial jury goes death, Judge goes
death; second trial, jury goes life, and so forth
and so forth.
None of those cases can be viewed as
overruling a case that decided a completely
different issue, and the Supreme Court has never
said that. They have continually sort of danced
in this area where somehow we can have a statute
that requires judicial factfinding in the event
of jury deadlock, but we're not really having
judicial factfinding.
It's hard to argue that or to explain what
that means, but, I mean, what it led to was, of
course, Mclaughlin v. Steel, where in
Mclaughlin in 2008 the Missouri Supreme Court -Mclaughlin was a case where the jury deadlocked.
It was in that case that the Missouri Supreme
Court said it's okay for judges to continue to
impose death sentences, that they are really not
engaging in factfinding. They're just sort of -they sort of hint that it's just a reviewing
4138

1
2
3
4
5
6
7
8
9

process. It's important to note that it's that
type of logic, that reviewing process logic, that
was expressly rejected in Hurst v. Florida
without equivocation.
I think it's important that the Court sort of
understand the timeline that we're looking at
here, because Ring starts in 2002 and continues
on to 2016 before we have sort of Hurst, where
they really say, yeah, that's what we meant. If
10 you understand, in the interim there was always a
11 majority of states that went life without or
12 non-death, but there were -- there were basically
13 two other types of things that could happen post
14 Ring.
15
There were these statutes, like Florida, like
16 Alabama, like Delaware, Nebraska, and Montana
17 that were very judge-centric. And arguably you
18 could look at the time Mclaughlin was decided and
19 say, -yeah,this--looksmaybe-a-tittlebitlike--20 judicial factfinding, but look at what these
21 other states are doing. It's even more
22 judge-centric than what we're doing here in
23 Missouri; so, that's probably okay.
24
Well, what happened in Mclaughlin, those five
25 states basically, in one fell swoop, had their
4139

- -----

1
2
3
4
5
6
7
8
9
10

11

12
13
14
15
16
17
18

19
20
21
22
23
24
25

statutes wide out. Florida explicitly. Delaware
Supreme Court took its own statute out. Alabama
Supreme Court, we did acknowledge, continued to
validate its statute, but its legislature took
the statute off the book. So those three states
were off the book.
The only other two states that had that
really highly judge-centric death sentencing
model are Montana, that's last death sentence
goes back to 1997, and Nebraska that, again, has
not had an active death penalty.
The only state that I know of that has ever
had a statute that is similar to what we have
here in Missouri is the state of Indiana. And if
you look at my motion closely, I looked at every
Supreme Court case I could find from Indiana post
Ring to see if they'd ever used that death
sentencing model, and they haven't.
So basically what we have -- that's why I say
Missouri is on an island. There are lingering
traces of judge death sentencing in the post
deadlock or judge centered, but they're not being
used. Missouri has used it as early as -- as·
late as 2017 in Rice. They used it in Shockley,
they used it in Mclaughlin. But this is the only
4140

-

1
2
3
4
5
6
7

8
9
10

11

12
13
14
15
16
17
18
19

20
21
22
23
24
25

place that I know of, after a fairly intensive
national search, where this can even happen,
where it's even on the table as a possibility.
So that sort of, you know, leads me to this
response that's come from the Attorney General's
Office on this issue as well as in
Mr. Patterson's response, is that this judge from
the Eastern District of Missouri, the federal
judge that invalidated McLaughlin's death
sentence, judge-imposed death sentence, is sort
of an outlier.
Well, the first thing is we had to realize
this, is if -- if you looked at it only from the
standpoint of Missouri and Missouri state court
judges, that might get some traction, but the
reality is just the opposite. Calling this judge
an outlier by the State of Missouri is sort of
like the pot calling the kettle black. Missouri
is onthisislandin terms of-judge
death-sentencing in the event of jury deadlock
when you look at the whole nation and the way we
interpret the Constitution, not this judge.
It's completely -- it's a backwards argument.
They say, well, this lone-standing judge in the
Eastern District is somehow going to get

1
2
3
4
5
6
7

8
9
10

11

12
13

14
15
16
17
18
19
20
21

22
23
24
25

4143

4141
1
2
3
4
5
6
7

8
9
10

11
12
13

14
15

16
17
18
19
20
21
22
23
24
25

reversed, so what was said in that opinion
doesn't matter. Where is she going to get
reversed? The Eighth Circuit? Maybe. United
States Supreme Court, there are absolutely four
votes that would unhesitatingly support that
decision. And even the conservative justices of
the United States have consistently -- several of
them have expressed a disdain for judge death
sentencing. They don't like the idea that one
public official's point of view, in the absence
of a waiver of the right to a jury trial, can be
substituted for the conscience of a community.
So in that context, that judge is not an outlier
at all.
In order to get that issue to that judge,
after all of Mr. McLaughlin's state remedies have
been exhausted, required first and foremost
overcoming basically what we refer to in the
industry as a minefield of potential procedural
default. And then when you get the substance of
your issue before a federal judge, it's not an
abuse of discretion standard. It's even a higher
standard.
The standard that the judge employes is: Is
the state court's interpretation of federal law

4142

unreasonably nonobjective in light of firmly
established United States Supreme Court
precedent? You'll notice in that decision the
judge rejected nearly all of McLaughlin's claims,
and those she rejected, she went one step further
and said they're not even worthy of an appeal and
denied a certificate of appealability.
But what was determined there is that this
notion that somehow you can have a statute that
says post jury deadlock, the judge goes back and
starts again anew is somehow not contrary to
Ring. And she said it's contrary to Ring and to
Mills v.. Maryland I'll touch on that for just a
moment. One point that Mr. Patterson raises is
why didn't that judge focus on Hurst?
I think procedurally the Court needs to
understand that for that writ of habeas corpus to
survive, analytically it almost, as I understand
----it,-ithas-tobebased-upon-Supreme··Court
precedent that is in place at the time the State
Supreme Court makes its decision.
So you can't -- if the decision in Mclaughlin
in 2008, for it to be objectively unreasonable,
the Missouri Supreme Court had to somehow predict
what the Supreme Court was going to do in 2016.

That would not cut it under the substantive
2 standard. So although McLaughlin's lawyers in
3 that proceeding referenced Hurst, the judge
4 basically decided it on two grounds. It violates
5 Ring, it's got judicial factfinding all over it.
6 And it violates Mills because it allows -- it
7 allows a death verdict in a situation where
8 eleven jurors could be pro mitigation, pro life
9 mitigation, but one holdout could force the issue
10 and take it to the judge.
11
It was those two precedents that had been
12 well in effect in 2008. Ring was 2002; Mills v.
13 Marylandwas around 1988, that led to that
14 decision. So the idea that that's a decision
15 that goes exactly contrary to what the State is
16 asking you is an outlier that is going to be
17 reversed some day is not a very strong argument.
18
The final thing that I'll touch on just once
19 again and make one quick renewal is this idea
20 that a judge, that you or any other judge, could
21 sit in a situation and not engage in factfinding.
22 We know the only facts that we really know is
23 that the jury found the aggravating
24 circumstances. We don't know what mitigating
25 circumstances they found.
4144
1

1

2
3
4
5
6
7
8
9

I mean, this Court cannot go forward in this
process without independently assessing what
mitigating circumstances it found from hearing
the evidence in this case and independently
engaging in some sort of weighing process. If
not, then the whole -- the whole ball of wax sort
of falls apart.
I mean, are you -- I mean, are you really
going to decide whether Craig lives or dies

10

without independently coming to some factual

11

conclusions on what mitigating circumstances
exist and how they relate to the aggravating
circumstances? It's incomprehensible, it's
illogical, and it's the reason that we have

12
13

14
15
16
17
18

19
20
21
22
23
24
25

McLaughlin v. Steele. It just defies common

sense.
We're faced with a statute that tells you to
start over and to independently make findings of
fact iAaccordaneewith-statute; Andasa-state,
we're trying to coexist with a statute that says
judges must do that, but the United States
Supreme Court, that has even more firmly and more
adamantly and with strong numbers taking the
position that judicial factfinding in the capital
sentencing process violates the Constitution.

1
2
3
4
5
6
7
8
9
10

this concept that any death sentence imposed in
the absence of unanimous decision by the jury
violates the Sixth Amendment right to a trial by
jury is incorporated via the Fourteenth Amendment
as well as the Eighth Amendment's prohibition of
cruel and unusual punishment, as incorporated by

11

Unless there's further questions by the
Court, that would conclude my argument.

12
13
14
15
16
17

the Fourteenth Amendment, and it is also contrary
to the corollary provisions of the Missouri
Constitution. I believe that's Article I,
Section 22(a).

THE COURT: I think you've well covered
it, Mr. Jacquinot.
Mr. Patterson.
MR. PATTERSON: Thank you, Your Honor.
We did file suggestions in opposition to the

Defendant's motion, and the Court's had an
19 ·· -opportunitytoread··th0se,and-fw0n'lreadall
20 those. I'll just hit some high points.
21
THE COURT: Yes, sir.
MR. PATTERSON: First I'd point out that
22
23 essentially the same motion was taken up in State
24 v. Marvin Rice just this past year, in October,
18

25

and Judge Parker rejected this motion in that

4145

1
2
3
4
5
6
7
8
9
10
11

12
13

Seven judges believe that it violates the
Sixth Amendment, as incorporated by the
Fourteenth. Justice Breyer believes that any
judge death sentence violates the Eighth
Amendment. I would touch on that a little bit
more because one of the key components of that
Eighth Amendment jurisprudence is the fact that
it's a prohibition against cruel and unusual
punishment. And one component that is often
utilized by the United States Supreme Court, in
addition to the element of cruelty, is that
concept of unusual.
That simply refers back to how, as we sit

14 here in 2018, how unusual it is that a judge will
15 impose death post jury deadlock. There's only
16 one state that allows it or that does it.
17 There's other states that theoretically allow it,
18 but in practice I have not seen it happen
19 anywhere outside of Missouri. And certainly it's
20 not something that a fair and accurate survey of
21 the law would suggest would happen anywhere other
22 than Missouri post Hurst
23
The final point that I'll make again is that
24 there is -- and I think this is touched upon in
25 our other motions. There is just a renewal of
4146

4147

1
2
3
4
5
6
7
8
9
10
11

12
13

14
15
16
17
18
19
20
21
22
23
24
25

that case as well. The defendant was ultimately
sentenced to death.
I would also point out that in State v.
ShockleY, which involved the killing of a highway
patrolman, you have the situation we have here

where the jurors found an aggravating
circumstance beyond a reasonable doubt and then
did not find that the mitigating circumstances
outweighed the aggravating circumstances, and
then the decision was passed to the Judge.
In Shockley, we also -- our office, as
special prosecutors, handled the PCR in Shockley
recently, which was recently denied also by Judge
Parker. That happened this year. And then in
September of this year, Rosemary Percival, who is
the Appellate Public Defender, who was at our
trial and works with these defense attorneys,
filed a writ with the Missouri Supreme Court
seeking to have them overturn the death sentence
based on Hurst And we just looked that up. In
November of 2017 the Missouri Supreme Court
denied that writ without opinion.
But in the appellate decision in ShockleY,
which was issued in 2013 after Whitfield, the
defendant, Shockley, he argued that the weighing
4148

1
2
3
4
5
6
7

8
9

10
11
12
13
14
15
16

17
18
19
20
21
22
23
24
25
1
2
3

4
5
6
7

8
9
10
11

12
13

14
15
16
17
18
19
20
21
22
23
24
25

process of the aggravators and mitigators was
improper that the judge would do that. The Court
held, no, you misread the statute. There is not
any improper judge factfinding.
And the Court said: Permitting a Judge to
consider the presence of statutory aggravators
and to weigh mitigating evidence against that in
aggravation, in deciding whether to impose a
sentence of death, when the jury did not
unanimously agree on punishment, does not negate

1
2
3
4
5
6
7

8
9
10

the fact that the jury already had made the
required findings that the State prove one or
more statutory aggravators beyond a reasonable
doubt and it did not unanimously find the factors
in mitigation outweighed those in aggravation.

11

Rather, the statute provides an extra layer of
findings that must occur before the Court may
impose the death sentence. Mr. Shockley's
argurnentis-wiU1outrnerit,
That's the same argument being made here, and

16

then in a footnote they address Ring and explain
why that is okay under Ring. As Mr. Jacquinot
sort of admitted during his argument, Hurst is
not an extension of Ring. There was a very
straightforward application of Ring and Apprendi

4149

to the Florida statute and finding, because the
jury did not make a finding beyond a reasonable
doubt of an aggravating circumstance, that that's
required to make the defendant death eligible,
that statute was unconstitutional.
Here our statute is constitutional. We're
not an outlier with regard to the fact that this
weighing is not a factfinding issue under Ring.
If you look at State v. Nunley, 341 S.W.3d 611,
that's a guilty plea case. But the defendant was
challenging the fact -- he said he still thought
he was entitled to a jury finding with regard to
whether the evidence in mitigation was sufficient
to outweigh the evidence in aggravation. That's
how he challenged his death sentence under his
guilty plea.
In a footnote to that opinion, the Court, the
Missouri Supreme Court, cited a number of Circuit
Court, Federal Circuit Courts of Appeals opinions
that the weighing process is a process and not a
fact to be found. For example, United States v.
Sampson, United States v. Purkey, Eighth Circuit,
the Court characterized the weighing process as
the lens through which the jury must focus the
facts it has found to reach its individualized

4150

12
13

14
15
17

determination.
And then the footnote goes on to cite several
other decisions for that same proposition that
the weighing of evidence, aggravators versus
mitigators, is a function distinct from
factfinding, and Apprendi and Ring do not apply
here.
For those reasons, I would ask you to deny
the motion and follow the Missouri Supreme Court
precedent, that our procedure is constitutional.
THE COURT: Any final word,
Mr. Jacquinot?
MR. JACQUINOT: Just, Your Honor, I
mean, the Shockley case, basically it's just a
reiteration of what the Missouri Supreme Court
said in McLaughlin. It was countered in
McLaughlin v. Steel. I think it's important,

18 when we talk about the idea that Hurst didn't
19 -expandupon Ring, butdecisions arernadeby
20 Supreme Courts both in the state and the federal
21 level.
The question arises: How strictly are they
22
23 going to impose -- are they going to follow that
24 doctrine and that holding as the years go by?
25 What Hurstsays is they are very strict. The

--

4151
1
2
3
4
5
6
7

8
9

10
11

12
13
14
15
16
17
18
19
20
21
22
23
24
25

numbers are very strong; they are eight to one.
There was a repudiation of independent judicial
factfinding, not simply upon finding aggravating
circumstances or the absence thereof.
Even if what Mr. Patterson said were
accurate, that somehow weighing aggravators
against mitigators is not factfinding, what seems
to defy common sense is the Court cannot do that
without independently finding which mitigating
circumstances exist in this case or any other
case. Also, what they didn't address at all was
the Mills argument that says, you know, we can
have an eleven-one life on mitigation and yet put
this to the Judge for an independent
reassessment.
Again, Nunleyis a plea case. He waived his
right to a trial by jury. That's the holding. I
would say any footnote there, especially given
the timing of that decision, is of limited
precedential value. The fact of the matter is
that the Missouri Supreme Court has been somewhat
avoidant of this issue post Hurst and post
McLaughlin v. Steel, but that doesn't, you know,
cause the reality to evaporate.
There is an overwhelming and strong national

4152

,__

1
2
3

4
5

6
7
8
9
10

consensus against what the State is suggesting
here, is that we can simply have the Judge make
the call, without a new penalty phase, post jury
deadlock.
THE COURT: Thank you. Well, I've fully
considered the Defense motion as well as the
State's reply and the argument here, which has
been comprehensive.
Island or not, I would intend to follow what
the law in Missouri is, as I now understand it,

on this issue, that being statutorily as well as
12 Missouri Supreme Court. That means to me that
13 the Court is in a position and, as circumstances
14 are at this time, should consider both options in
15 terms of life, without parole, as well as death.
16
So the Defense motion for trial Court
17 imposition of a sentence of life without parole
18 is denied. Again, to be clear, that's as a
····-19 mattei-of.law.····
We're still -- I'm still intending to hear
20
11

21
22
23

24
25

1
2
3

11

13
14

15
16
17
18

19
20

21
22
23

24
25

2
3
4
5

6

7
8
9
10

11
12
13
14
15
16
17
18
··· -19
20

argument on the appropriateness of the sentence
moving forward. So I'll go to the State in that
regard, if you're ready, Mr. Patterson.
MR. PATTERSON: Yes, sir.
Your Honor, you've lived with this case as

23

much as the parties have. You sat through all of
the evidence, and so I won't recount all of the
evidence or recount the argument I made to the

2

4153

4 jury on punishment, but I will highlight some
5 things for you.
6
The harm caused by this defendant's crime was
7 immense. Hailey Owens was doing what any
8 ten-year-old girl ought to be able to do; walking
9 home in her own neighborhood, after visiting a
10 friend. But her day went drastically different
12

1

because of this defendant's actions. As he
ripped her from the street, threw her across his
lap into his pickup truck, then drives her twelve
minutes across town, what must have seemed to her
like an eternity.
Then when they get to his house, he takes her
into an unfamiliar house, this large man and this
ten-year-old girl, where he rapes and sodomizes
her, at some point during this process binding
her, and she's struggling against the bindings to
get free, and then taken to his unfinished
basement, which to her had to appear like a
dungeon, where then ultimately he places the
barrel of that .22 rifle to her head and kills
her, and then treats her body and clothes and

4154

21
22
24
25

1
3
4

5
6

7
8

9
10

11
12
13
14

15
16
17
18

19

20
21
22
23

24
25

effects like so much trash. The terror
experienced by Hailey Owens simply cannot be
expressed in words.
And you heard the evidence in mitigation.
And they don't like me using the word "excuse,"
but the fact is I can use the word "excuse."
That's what it was. There wasn't -- there was no
true remorse you heard in this case. Instead,
what you have is a defendant who is an educator,
was put in a place of trust by the schools, by
parents, by students, and he violated that trust.
Any remorse he shows, I would argue, is the
sorrow and regret he feels for the position he's
placed himself, his friends, and his family in,
and I don't believe it deserves any weight.
You know, sometimes we talk about crimes like
throwing a pebble in a pond, and the ripples and
how it affects more than just the victim. Well,
inthis·caseRwas so mudi-rnorethanthat, much · ········ ~····
more like the result of an earthquake, where you
don't get ripples, but you get a tsunami that
changes people's lives forever, not just Hailey's
and that terror that she experienced.
You heard the victim impact evidence, which
was not like a funeral but was evidence tailored

4155

to let the jurors and the Court know who Hailey
was and the specific harm that this defendant
caused, not just to Hailey but to her family, her
brother, her teachers, other students in her
class, and our community. They may want to
belittle it, but this crime did, in fact, change
Springfield, Missouri, as Pastor Findley so
poignantly talked about.
You know, the Supreme Court spoke about
retribution, and they talk about how it's part of
the nature of man, and channeling that instinct
in the administration of the criminal justice
system serves an important purpose to promote the
stability of society, governed by law, because
when people believe that an organized society is
unwilling or unable to impose upon criminal
offenders the punishment they deserve, thy will
be sowing the seeds of anarchy, of self-help,
vigilante justice, and lynch law.
The Court has also recognized that capital
punishment is an appropriate sanction in extreme
cases, extreme cases such as this. We heard
through jury selection throughout the trial that
the death penalty ought to be reserved for the
worst of the worst. I submit to you this one of

4156

1
2
3
4
5
6
7
8
9
10
11

12
13

14
15
16
17
18
-19
20
21
22
23
24
25
1
2
3
4
5
6
7
8
9
10
11

12
13
14
15
16
17
18
19
20
21
22
23
24
25

the worst of the worst and that capital
punishment is an expression of the community's
belief that certain crimes themselves are so
grievous and such an affront to humanity that the
only adequate response is the death penalty, and
I believe that that is this case.
I'd also like to talk a little bit about the
other charges in the case that weren't tried and
aggravating, because Missouri law doesn't let
them try us, and the aggravating factors that the
jury found. So Count I and II were the murder
and the armed criminal action that went with it.
Count II is child kidnapping, an A felony,
carrying between ten to thirty years or life.
Count III, rape in the first degree of a
child under twelve, which carries life without
the possibility of parole, until thirty years
have been served or, arguably, in this case
straight-lifewithout··thepossibilityofparole·
because the crime was outrageously, wantonly
vile, horrible, and inhuman, reminding ourselves
that the jury found the aggravating circumstance
of her being randomly chosen and bound.
Count IV is statutory sodomy in the first
degree of a child under twelve, also a crime

4157

carrying a minimum punishment of life, without
the possibility of parole, until thirty years
have been served and again arguably carrying
straight life, without the possibility of parole,
because of the nature of the crime.
The jury, in its aggravating circumstances,
found that this murder was committed in the
course of a rape, "rape" defined as rape in the
first degree for them in the jury instructions,
and sodomy, "sodomy" being defined for them in
the jury instructions as sodomy in the first
degree.
The other interesting thing under Missouri
law is that when you have two sex offenses like
that that are committed by a defendant, by law,
those sentences must be run consecutively. So
even if he had gotten the life without variety,
where a minimum of thirty must be served, he
would in effect get a true life, without the
possibility of parole, sentence. That's if he
hadn't killed her, but he did.
And the law contemplates that when you have
multiple heinous acts committed, that each act
will be punished. I don't know that I can
accurately talk about how awful this crime must

4158

1 have been for Hailey or really characterize how
2 awful it is for our community. It is true the
3 death penalty should be reserved for the worst of
4 the worst. This is that case. Thank you.
5
THE COURT: Defense argument.
MR. BERRIGAN: I think back to the week
6
7 of October the 23rd. It's a date easy to
8 remember for me, Judge; that's my birthday. We
9 had at least a dozen panels, I'd say, during that
10 week. And I heard Mr. Patterson say, as the
11 Defense reiterated over and over again, that this
12 is the process that jurors have to follow for
13 Mr. Wood even to be eligible for the death
14 penalty.
15
And I know you know it, but a lot of these
16 folks don't; that not only does the State have to
17 prove the case of murder beyond a reasonable
18 doubt, but they have to show aggravating
19 ··CircumstaAces,oneormore,.0eyondareasonable
20 doubt; that the jurors then consider the
21 mitigation evidence, that they weigh it.
22
And before Mr. Wood would even be eligible
23 for the death penalty, even eligible, all twelve
24 jurors, with their individual scales -- you'll
25 remember that well -- have to come to the same

4159

1
2
3
4
5
6
7
8
9
10
11

12
13
14
15
16
17
18
19
20
21
22
23
24
25

individual conclusion that the aggravating
evidence outweighed the mitigating evidence. All
twelve. And then even then, they could reach
contrary decisions about the appropriate
punishment, because in Missouri you're never
required to vote for death.
That was the summary of the scheme the Court
heard over and over and over again, and so did
those jurors. They heard it not just in voir
dire, but in trial and closing argument and in
the instructions. Yet, here we are and you're in
this position of having to decide whether Craig
Wood lives or dies, and you don't know how that
turned out. You don't know that because that's
not among the questions we asked them.
All we asked them is: Is Mr. Wood
automatically going to get life? Did you find an
aggravating circumstance? If the answer to that
was "no," it's life. They said, yes, we found an
aggravating circumstance, Your Honor.
Then we asked them this question: Did you
unanimously find that the mitigating factors
outweighed the aggravating factors that were
found to exist? Do you remember, that's Question
2B. The answer to that simply was "no." If the

4160

1
2
3
4

5
6
7
8
9

10
11

12
13

14
15
16

17
18
19

20
21
22
23
24
25
1
2
3
4
5
6
7
8
9

10
11

12
13

14
15
16

17
18
19
20
21
22
23
24
25

answer had been "yes," again he goes, life, we're
done. But that's all they said, "no."
The question that then needed to be asked,
the third question, the one that's missing, the
one you don't know the answer to as you sit here
and have to decide whether this man lives or
dies, is: Did you unanimously, jurors, each one
of you in your individual scales, decide that the
aggravating circumstances outweigh the mitigating
circumstances? Because if you did not, you can't
render a sentence of death.
And yet you sit here, not knowing the answer
to that, and you're asked to render a sentence of
death. How does that work? How does that work?
They couldn't do it. They wouldn't have been
able to do it.
You know, we make the legal arguments
regarding why this should be life without parole,
bulcthern0st·imperativeargumenlc,I believe,isa
moral one. It's a moral argument. It's based on
this very simple premise that life is too
important, it's too valuable, it's too sacred
that it ever should fall to one man, however
noble or worthy his character, to decide between
life or death.
4161
You know, that's been a governing principle
for jury trials in the United States for 242
years and for centuries of English common law
before then. We have jury trials because
freedom, our liberty, our freedom is too valuable
to us to be taken by one person, absent a vote of
twelve that you're guilty. That's what's been
required.
That's why the federal government, in all but
two of the states, us and Indiana, say, look, if
you don't have twelve people that say death, it's
not death; it's either life without parole, or
we're going to start all over again. One or the
other. And here we are, one amongst two.
I don't think that these other states have
made that assessment based on a concern about
their judges, whether or not they're not the men
of character or they're going to reach arbitrary
decisions. I think it's a moral principle, that
if we're going to talk about death, we have to be
absolutely unequivocally sure.
We have to be positive because it's
irrevocable. There's no changing this. Death is
the ultimate finality. Talk about deprivation of
liberty, deprivation of freedom. Death is the

4162

1
2
3
4
5
6
7
8
9

10
11
12
13

14
15
16

17
18
19
20
21
22
23
24
25
1
2
3
4
5
6
7
8
9

10
11

12
13
14
15
16
17
18
19
20
21
22
23

24
25

ultimate deprivation of freedom and liberty.
It's the ultimate one.
So all of these states have said you have to
have twelve people that come in with different
backgrounds, different experiences, different
opinions, different beliefs, and they have to
agree. They have to agree that death is the
appropriate punishment, and if that's not the
result, they don't all agree, then it's life.
That's a moral determination states have made,
not a legal one.
This Court's spent its professional life
either in the pursuit of justice or upholding the
rights of citizens, not just their constitutional
rights but their unalienable rights, and what
we're asking the Court to do today is just
acknowledge what we all know to be true, that
life in this country is a precious commodity,
·· 13reE:i0us, ··and·that··ilcshouldtaketwelve people
agreeing to deprive one of his life.
Mr. Patterson made these same arguments to
those jurors. They didn't agree. The jurors
were told unequivocally that they had the
decision to make: Is Craig Wood going to die in
God's time or man's? And they couldn't agree.

4163

It should be God's time; that should be
sufficient. He's going to die in prison.
THE COURT: Thank you.
Anything else, Mr. Patterson?
MR. PATTERSON: No, sir.
THE COURT: All right. I want to make a
little bit further record and have a couple of
remarks before I grant allocution and we proceed.
Just again so the record's clear here,
November 2nd, 2017, as I indicated earlier, the
jury in this case returned its verdict finding
the defendant guilty of murder in the first
degree of Hailey Owens. The Court accepted that
verdict.
On November 6, 2017, the jury returned its
verdict advising the Court the jury was unable to
decide or agree upon the punishment for murder in
the first degree. In its verdict for murder in
the first degree, the jury unanimously found
beyond a reasonable doubt that the State had
proven six statutory aggravating circumstances.
Specifically the jury found that, first, the
murder of Hailey Owens involved torture and
depravity of mind, and, as a result thereof, the
murder was outrageously and wantonly vile,
4164

1
2
3
4
5
6
7
8
9
10

11
12
13
14
15
16
17
18
19

20
21
22
23
24
25
1
2
3
4
5
6
7
8
9
10

11

12
13
14
15
16
17
18
19
20
21
22
23
24
25

horrible, and inhuman in that, one, the defendant
killed Hailey Owens after she was bound or
otherwise rendered helpless by defendant, and
that the defendant thereby exhibited a callous
disregard for the sanctity of all human life;
two, that the defendant's selection of the person
he killed was random and without regard to the
victim's identity and that defendant's killing of
Hailey Owens thereby exhibited a callous
disregard for the sanctity of human life.
The jury found, as the number two aggravating
circumstance, that the murder of Hailey Owens was
committed for the purpose of avoiding arrest.
Third, the murder of Hailey Owens was
committed while the defendant was engaged in
rape.
Four, the murder of Hailey Owens was
committed while the defendant was engaged in
sodomy.
Five, the murder of Hailey Owens was
committed while the defendant was engaged in
kidnapping.
And, six, that Hailey Owens was a witness or
potential witness of a pending investigation of
the kidnapping of Hailey Owens.

4165

The jury further advised the Court, in its
verdict for murder in the first degree, that the
jury did not unanimously agree that the facts and
circumstances in mitigation of punishment were
sufficient to outweigh facts and circumstances in
aggravation of punishment. Again the Court
accepted the verdict as to punishment.
For the offense of murder in the first degree
of Hailey Owens, this Court does accept and
agrees with the factual findings of the jury as
set forth in its verdict as to punishment.
Specifically, this Court finds beyond a
reasonable doubt the State did prove six
statutory aggravating circumstances, and this
Court finds beyond a reasonable doubt that the
State proved each of the six, as I've just
recited into the record.
The Court further finds the facts and
circumstances in mitigation of punishment were
not sufficient to outweigh facts and
circumstances in aggravation of punishment.
Therefore, this Court finds that, based upon
factual findings of the jury, that the jury was
required to consider both life imprisonment,
without the possibility of probation or parole,

4166

1
2
3
4
5
6
7
8
9
10

and death as possible punishments for the
defendant.
The Court further finds that since the jury
was unable to agree upon which punishment to
impose, this Court, based upon the factual
findings of the jury and after the Court, having
followed the same procedure required of the jury,
is required to consider both life imprisonment,
without the possibility of probation or parole,
and death as possible punishments for the
11 defendant.
12
This Court, after considering the totality of
13 the evidence presented in both the guilt and
14 penalty phases of the trial, the factual findings
15 of the jury, and following the procedures set out
16 in Missouri statute, has given very serious
17 consideration to both life imprisonment, without
18 the possibility of probation or parole, and
19 death-.
20
This Court has also considered the issues
21 raised in the Defendant's motion for trial Court
22 imposition of a sentence of life without parole,
23 as well as all of the cases that have been
24 outlined by the Defendant in that regard.
25
So the Court has taken all of those into

4167

1
2
3
4
5
6
7
8
9

account. I'm not going to recite or repeat any
of the facts that both sides have dealt with here
and particularly those the prosecutor did a few
minutes ago. We sat through the trial process
and many, many processes and hearings before that
over several years, and I think the community, as
well as all of us, are familiar with the facts in
great detail.
I would have to say there was, I think, in
10 this case a real factor of a death of innocence,
11 the death of innocence of a ten-year-old little
12 girl, Hailey, and not only death of innocence but
13 she gave her life, but also death of innocence
14 for a neighborhood, for a community, for a
15 family. Again, I think the earthquake analogy
16 may be very accurate, indeed.
17
But the words of the jury and what the Court
18 has just read as far as those aggravating
19 circumstances are not just words or hoops to be
20 jumped through. They are, in fact, what happened
21 in this case and what happened to this little
22 girl. It is an exceptional case, an extreme
23 case, I think, in all regards.
24
Mr. Wood, if you'd please stand for
25 allocution at this time.

4168

-

By way of allocution, is there any legal
1
2 reason the Court should not proceed to judgment
3 and sentence in this case, Mr. Patterson?
MR. PATTERSON: No, sir.
4
THE
COURT: By way of allocution, any
5
6 legal reason the Court should not proceed to
7 judgment and sentence in this case, Mr. Berrigan?
MR. BERRIGAN: None that haven't already
8
9 been raised, Your Honor.
10
THE COURT: And, Mr. Wood, by way of
11 allocution, is there any legal reason the Court
12 should not sentence you at this time, sir?
If he wishes to make a statement, he may.
13
14 I'm not attempting to exclude that in the least.
15 I've just not heard that issue raised.
16
MR. BERRIGAN: No.
17
THE DEFENDANT: No, sir.
18
THE COURT: All right. And is the
... 19 answer,theR,"no'' asfar asanylegalreason,
20 sir?
21
THE DEFENDANT: Yes, sir.
THE COURT: All right. For the offense
22
23 of murder in the first degree, this Court
24 assesses and declares punishment to be death for
25 the murder of Hailey Owens.
4169
It is the judgment and sentence of this Court
1
2 that the defendant, Craig Michael Wood, is hereby
3 sentenced to death for the murder of Hailey
4 Owens. Court costs and $68 civil judgment for
5 Crime Victim Compensation is assessed.
Now, Mr. Wood, there are some rights that I
6
7 need to go over with you in regard to the case at
8 this point that come into play. I'm going to
9 take those rather carefully a section at a time.
10 You have the opportunity at any time to talk to
11 your attorneys before you answer any question,
12 anything of that nature.
13
Most of this is just simply trying to make
14 sure that you're informed of what your rights
15 are. I'm required to do that. I want you to
16 know what they are. Your attorneys can certainly
17 deal with those, as well.
18
First of all, because you were convicted
19 through the trial process, you do have a right to
20 appeal in this case, sir, and there is a time
21 limit in regard to that appeal. That is ten days
22 from the entry of the final judgment. Today in
23 the sentencing is the final judgment in the case.
24 So you do have to get your notice of appeal filed
25 within that time.
4170

.......

Now, Mr. Berrigan, do you intend to perfect
1
2 Mr. Wood's appeal for him, sir?
MR. BERRIGAN: We do, sir, yes.
3
THE COURT: All right. And in
4
5 connection with that, if you would submit to the
6 Court the appropriate paperwork in regard to
7 proceedings in forma pauperis -MR. BERRIGAN: Yes, sir.
8
THE COURT: -- then I'll be happy to
9
10 sign that, and we can proceed.
What that means, Mr. Wood, is that you do not
11
12 have funds to employ an attorney or to handle the
13 other costs in connection with an appeal. And so
14 you won't have to pay those, meaning that you do
15 have a right to have an attorney represent you on
16 appeal. You'll have a right to a trial
17 transcript for that purpose, as well. So do you
18 understand those rights, sir?
-19
THE DEFENDAN:r: Yes, sir.
20
THE COURT: All right. Then also,
21 separate from that appeal process is another
22 process that is under Supreme Court Rule, which
23 is 29.15. I need to explain that to you briefly,
24 as well. Now, under the rule that's now in
25 effect as of this year, I'm going to give
4171
1 Mr. Wood a copy -- there's actually two copies
2 here -- where he could have one, if you want him
3 to, and there's also copies for counsel if you
4 want to be able to read along. And there's a
5 copy of the rule itself.
MR. BERRIGAN: Thank you, Your Honor.
6
7
THE COURT: You're welcome. Now, the
8 document that's entitled, "Advice Of Rights Upon
9 Conviction, Pursuant To Rule 29.07(b)( 4)," this
10 is just the process whereby I'm going to make
11 sure you understand what Supreme Court Rule 29.15
12 provides. It's my duty to advise you of that at
13 this time.
14
Now, separate and apart, as I said, from the
15 appeals process, you have the right to seek
16 relief if you believe the conviction or sentence
17 in this court violates the constitution or laws
18 of this state or the Constitution of the United
19 States; that this Court, when imposing the
20 sentence, was without jurisdiction to do so; or
21 the sentence imposed was in excess of the maximum
22 sentence authorized by law.
23
Now, as it says, Rule 29.15 provides the only
24 way by which you seek relief for the above
25 claims. It says here I'm now providing you a
4172

. ....

1
2
3

4
5
6

7
8
9

10
11

12

13
14
15

16
17

18
.... 19
20

21

22
23
24
25

1

2
3
4
5
6

7
8
9

10

11
12

13
14
15

16
17

18
19
20

21
22

23
24
25

1

copy of Supreme Court Rule 29.15.
There's also a procedure form, and that is
Form 40. You'll be provided that at no cost when
you arrive at Department of Corrections. That's
the actual form that you would file in regard to
this process. Now, there's some time limits
involved that are very important, which is one of
the main points to make sure you understand
today, that you must understand that any motion
to vacate, set aside, or correct the judgment and
sentence under this rule must, number one, be
filed with this court within 180 days of today's
date if you do not appeal this Court's judgment
and sentence, or, if an appeal is taken -- which
it will be, as I've heard -- it must be filed
with this court within 90 days after the date of
the mandate of the Missouri Supreme Court. It's
saidthatwaybecau-sethiscasewill g0t0 tl"ie
Missouri Supreme Court. If they issue a mandate
affirming the judgment and sentence, then you'd
have that time limit to file it.
Now, it says also if you file this motion,
you shall include every ground known to you for
vacating, setting aside, or correcting the
4173
judgment or sentence. Also failure to file the
motion within these time limits constitutes a
complete waiver of any right you may have to seek
relief under Rule 29.15 in this court.
There's no cost deposit required for you to
file the motion, meaning you don't have to pay
any money to pursue this. If you're indigent and
file your own motion, an attorney will be
appointed for you. So that's a separate attorney
appointed should this process come into play.
Now, I have signed this and dated it. I
would ask that you do the same. It is simply for
purposes of putting in the record that I've, in
fact, notified you of all these things and for no
other purpose.
Are you signing it on his behalf?
MR. BERRIGAN: I am, Judge.
THE COURT: That's fine.
MR. BERRIGAN: As you will recall, there
were issues during the trial regarding Mr. Wood's
handwriting. I don't think, frankly, he's
required to sign anything -THE COURT: He's not.
MR. BERRIGAN: -- but I'm happy to do
it.
4174

2

3
4

5
6

7
8
9

10

11
12
13

14
15

16
17

18
··· 19
20

21
22

23
24
25

1
2
3

4

5
6
7
8
9

10

11
12

13
14
15

16
17

18
19
20

21
22

23
24
25

THE COURT: I was going to cover that
point, but I'm happy to have you do it. That's
fine. The record is just reflecting that, in
fact, it's been gone over with him, is all. That
completes that.
Now, do you understand all of those rights,
Mr. Wood?
THE DEFENDANT: Yes, sir.
THE COURT: All right. Thank you, sir.
Thank you, Mr. Berrigan.
MR. BERRIGAN: Yes, sir.
THE COURT: Now, one final area I'm
required to cover, and that is inquiry as to
representation by your counsel in this matter.
And I want to tell you, first of all, that if you
desire to have your counsel not be in the
courtroom during this process, I can ask them to
step out. That's your choice. What would be
· yourchoiceinthat regard?
THE DEFENDANT: That's not necessary.
THE COURT: All right, that's fine.
It's also not required that you answer any of
these questions, as I'm sure Mr. Berrigan was
about to point out to me; that any of these
questions -- you don't waive any rights by not
4175
doing so in regard to it.
I'm going to put him under oath, and if this
is as far as we get, then it is.
If you would, raise your right hand.
(Defendant, Craig Michael Wood, was duly
sworn by the Court.)
THE COURT: All right. You can put your
hand down. Would you state your full name for
the record, please.
THE DEFENDANT: Craig Michael Wood.
THE COURT: All right. And then can you
tell me -- well, how long have Mr. Berrigan and
Mr. Jacquinot represented you in this case?
THE DEFENDANT: I'm not a lawyer, and I
cannot effectively represent my own interests
without the assistance of counsel at this time.
I do not wish to waive any complaints or rights
that I have. Therefore, respectfully, I will not
be answering any questions from the Court at this
time.
THE COURT: All right. So just let me
ask you, Mr. Wood: Any other questions I would
ask you along this same line, covering the same
inquiry as to representation by your attorney,
would you answer that the same way you just have?
4176

1
2
3

4
5

6
7

8
9
10

11

12

13
14
15
16
17

18

19
20

21

THE DEFENDANT: Yes, sir.
THE COURT: All right, okay. The Court
finds, based upon the record at this point, no
probable cause to believe there's been
ineffective assistance of counsel.
Mr. Wood is remanded to the custody of the
Sheriff of Greene County for transportation to
the director of the State Department of
Corrections.
I am going to ask that everyone keep their
seat in the audience until Mr. Wood is back on
the other side of the door, please.
He can be taken at this time, as soon as you
all are done there.
MR. JACQUINOT: So we'll have a chance
to talk to him back there, Your Honor?
THE COURT: Yes, sir. Oh, absolutely.
(Pause in proceedings.)
THE COURT: We're adjourned.
(Court stood in adjournment at
4:00 p.m.)

*****

22

23
24

25

4177
CERTIFICATE OF COURT REPORTER
I, Connie McKeen, the undersigned, hereby
certify that I was the Official Court Reporter of
Division IV of the Circuit Court of Greene
County, State of Missouri, at the time the above
cause was tried; that the foregoing pages contain
a true and accurate reproduction of my Stenograph
shorthand notes of said proceedings. Should any
portion of this transcript be altered or redacted
for any purpose, this certificate is null and
void regarding a true and accurate reproduction
of the Stenograph shorthand notes made of the
proceedings.
This transcript was prepared pursuant to the
Court's order of January 16, 2018, and the fees
shall be paid by the State, upon a voucher
approved by the Court and taxed against the State
in accordance with Section 488.2250, RSMo.
Transcript completed and electronically
signed thi 3 h day of July, 2018.

\l

C._LJ-4rtl.-----A-.r1//

onh1e McKeen, CCR(3 3),
Official Court Reporter

4178

